APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the Supreme Court of California
Denying Petition for Review
(March 17, 2021) ................................................. 1a
Opinion of the Court of Appeals of the State of
California for the Sixth Appellate District
(December 9, 2020) ............................................. 3a
Judgment Order of the Superior Court of
California for the County of Santa Clara in
Favor of JPMorgan Chase Bank, N.A. and
Deborah Brignac (June 18, 2018) ................... 39a
Judgment of the Superior Court of California for
the County of Santa Clara After Demurrer in
favor of U.S. Bank and SPS (April 6, 2018) ... 42a
Order of the Superior Court of California, County
of Santa Clara Re: Demurrer and Motion
to Strike by Defendant Deborah Brignac
(February 7, 2018) ............................................ 44a
Order of the Superior Court of California, County
of Santa Clara Re: JPMorgan Bank Demurrer
and Motion to Strike (February 7, 2018) ........ 56a
Order Re: Demurrer Filed by Defendants Select
Portfolio Servicing and U.S. Bank
(January 31, 2018)............................................ 87a

APPENDIX TABLE OF CONTENTS (Cont.)
REHEARING ORDERS
Order of the Court of Appeals of the State of
California for the Sixth Appellate District
Denying Petition for Rehearing
(December 30, 2020) ....................................... 105a
OTHER DOCUMENTS
Letter to Commonwealth of Massachusetts with
Affidavit of John L. O’Brien, Jr. Attesting
Robo Signed Signature Document ................. 107a
Assignment of Deed of Trust for Loan No.
0694292772 (March 1, 2010) .......................... 125a
Deed of Trust, Excerpts ........................................ 128a

App.1a
ORDER OF THE SUPREME COURT OF
CALIFORNIA DENYING PETITION FOR REVIEW
(MARCH 17, 2021)
IN THE SUPREME COURT OF CALIFORNIA
________________________
VINCENT TANG,

Plaintiff and
Appellant,
v.
JPMORGAN CHASE BANK, N.A. ET AL.,

Defendants and
Respondents.
________________________
VINCENT TANG,

Plaintiff and
Appellant,
v.
JPMORGAN CHASE BANK, N.A.,

Defendants and
Respondent.
________________________
S266733
Court of Appeal, Sixth Appellate District No. H045898, H046697

App.2a
The petition for review is denied.
/s/
Chief Justice

App.3a
OPINION OF THE COURT OF APPEALS
OF THE STATE OF CALIFORNIA
FOR THE SIXTH APPELLATE DISTRICT
(DECEMBER 9, 2020)
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA SIXTH APPELLATE DISTRICT
________________________
VINCENT TANG,

Plaintiff and
Appellant,
v.
JPMORGAN CHASE BANK, N.A. ET AL.,

Defendants and
Respondents.
________________________
H045898
(Santa Clara County Super. Ct. No. 17CV307324)
________________________

App.4a
VINCENT TANG,

Plaintiff and
Appellant,
v.
JPMORGAN CHASE BANK, N.A.,

Defendants and
Respondent.
________________________
H046697
Before: GREENWOOD, P.J., GROVER, J.,
and DANNER, J.
Appellant Vincent Tang took out a loan to purchase
a home, secured the loan with a deed of trust, and
defaulted on the loan. The property was subsequently
sold in a nonjudicial foreclosure sale. After the foreclosure sale, Tang brought suit against multiple
entities and an individual who had handled the deed
of trust—including respondents JPMorgan Chase Bank,
N.A. (Chase), Select Portfolio Servicing (SPS), U.S.
Bank, N.A. (U.S. Bank), and Deborah Brignac (collectively, defendants).1 The trial court sustained defen1 Tang’s then-wife also executed the deed of trust, but she did
not participate in this lawsuit. Tang also sued the entities that
purchased the property at the trustee’s sale in 2017, but later
dismissed those parties (Orchard Terrace Inc., Monte Vista
Oaks, Inc., Monte Vista Oaks DB Plan, and Kip Dream Homes)
from the lawsuit. In addition, Tang sued Quality Loan Service
Corporation (QLS), the trustee at the time of the nonjudicial
foreclosure sale in 2017. QLS is not a party to these appeals.
According to Tang, QLS was “dismissed pursuant to a declaration

App.5a
dants’ demurrers to Tang’s complaint and entered judgments of dismissal against him. Tang has appealed the
judgments, alleging a number of errors by the trial
court. For the reasons explained further below, we
reject Tang’s contentions of error and affirm the
judgments of dismissal.
In a separate appeal, Tang argues that the trial
court erred in awarding contractual attorney fees under
Civil Code section 1717 to Chase. We agree and reverse
the trial court’s order.
I.

Facts and Procedural Background
A. Allegations in the Complaint

In 2005, Tang executed a deed of trust securing
a note for $825,500 on a residential property in San
Jose (property).2 The complaint alleges that, beginning
in 2005, defendants Chase, U.S. Bank, and SPS
engaged in a joint venture and conspiracy to “illegally
attempt[] to claim a beneficial interest” in the property
and to unlawfully sell it in a nonjudicial foreclosure
sale.
Washington Mutual Bank, FA (WaMu) was Tang’s
original lender and beneficiary of the trust deed.
of non-monetary status pursuant to California Civil Code
[section] 2924l ” since it was “nothing more [than] the foreclosure
trustee.” The dismissal of QLS is not included in the record on
appeal.

2 The factual summary is based on the complaint and publicly
recorded documents attached to the complaint. We assume the
truth of all properly pleaded allegations in Tang’s complaint, as
well as those that are judicially noticeable. (Heckart v. A-1 Self
Storage, Inc. (2018) 4 Cal.5th 749, 753.)

App.6a
California Reconveyance Company (CRC) was the original trustee named in the deed of trust. Defendant
Deborah Brignac worked at CRC as a foreclosure
specialist and supervisor.
On or about February 26, 2010, Brignac executed
an assignment of the deed of trust on the property to
assign the deed of trust from Chase to a securitized
trust named “WaMu Mortgage Pass-Through Certificates Series 2005-AR19 Trust” (securitized trust). On
March 1, 2010, CRC recorded the assignment with the
Santa Clara County Recorder. Tang’s claims on appeal
largely center on this 2010 assignment executed by
Brignac.
The complaint alleges Brignac in the February
26, 2010 assignment falsely claimed to be a “Vice
President” of Chase and “fraudulently executed” the
document. The complaint does not explain how she
fraudulently executed the assignment other than
that she “never was a Vice President of JPMorgan
Chase Bank.” The assignment, which is attached to
the complaint as an exhibit, reflects that the
assignment was signed by Chase as successor in
interest to WaMu and contains Brignac’s signature
above a caption that reads “Deborah Brignac, Vice
President.”
According to the complaint, Brignac executed the
assignment at the direction of CRC, and her claim
that she was a vice president at Chase was fraudulent.
The complaint does not explicitly allege that Brignac
did not have Chase’s authority to sign the assignment
on its behalf, although in the first cause of action it
states that Tang seeks to have the assignment
voided “for reasons of fraud, lack of authority, and
forgery.”

App.7a
More generally, the complaint alleges Brignac
fraudulently executed other unspecified documents on
behalf of CRC. The complaint does not indicate that
these documents bear any relationship to the property.
The complaint alleges that Brignac has a “troubled
past” and submitted “questionable” documents in
Massachusetts. The complaint also attaches purported
letters from an individual with the title of “Register
of Deeds” from Massachusetts that reference “robosigners” generally but that do not name Brignac.
Brignac’s name appears in a document attached to
the complaint titled “McDonnell Property Analytics
Approved Robo-signers List.”
On March 1, 2010, CRC recorded a notice of
default on the property that stated that the past due
payments as of February 26, 2010, amounted to $14,
954.54. No other notice of default was recorded prior
to the foreclosure sale, which occurred approximately
seven years later. Based on the time between the
recording of the notice of default and the actual sale,
the complaint alleges the 2010 notice of default is
“stale.”
The complaint alleges that, on or about March
10, 2014, defendant U.S. Bank “inserted itself into
the chain or links of title.” The complaint attaches a
substitution of trustee pertaining to the deed of trust
that indicates an entity called “ALAW” was now the
trustee. In that same document, U.S. Bank is named
as the institutional trustee of the securitized trust
and “successor trustee to Bank of America, NA.” The
recorded document further notes defendant SPS is
an “Attorney in Fact” for U.S. Bank.
Through another substitution of trustee recorded
in March 2016, QLS became the trustee under the

App.8a
deed of trust. The substitution of trustee was executed
by SPS as an attorney in fact for U.S. Bank (the
trustee for the securitized trust). QLS recorded several
notices of trustee’s sale at Chase’s direction.
In February 2017, QLS sold the property at a
trustee’s sale. The recorded trustee’s deed upon sale,
referencing the 2010 notice of default, states that a
default had occurred, and Tang’s unpaid debt on the
property together with costs amounted to $1,228,
617.12. The complaint does not dispute the fact of, or
the amount in, default.
B. Trial Court Proceedings
Shortly following the foreclosure sale of the property in 2017, Tang filed a wrongful foreclosure lawsuit
in Santa Clara County Superior Court. The trial court
sustained Chase’s demurrers to the original complaint
and first amended complaint and granted Tang leave
to amend.
In September 2017, Tang filed the operative complaint at issue here, the second amended complaint
(complaint), against defendants. He alleged six causes
of action: (1) declaratory relief (first cause of action);
(2) “statutory violations,” referencing various statutes,
including provisions under the California Homeowner
Bill of Rights (the HBOR) (second cause of action);
(3) unlawful foreclosure (third cause of action); (4)
slander of title (against Chase and QLS only) (fourth
cause of action); (5) cancellation of recorded instruments
(fifth cause of action); and (6) violation of California’s
unfair competition law (Bus. & Prof. Code, § 17200 et
seq.) (sixth cause of action).

App.9a
Defendants filed demurrers to all six causes of
action on various grounds and asserted Tang lacked
standing to bring his claims. Chase also filed a separate
motion to strike the first cause of action for declaratory
relief and argued that Tang had added this claim
without leave of court following its ruling on the
demurrer to the first amended complaint. Tang opposed
the demurrers and the motion to strike.
The trial court appears to have issued a tentative
ruling in favor of Chase on its demurrer, although that
ruling does not appear in the record on appeal. Shortly
thereafter, Tang submitted a document, entitled
“Statement of How Plaintiff Will Amend the Pleading.”
In this document, Tang proposed amending the complaint to allege the notice of default was “stale,” that
Brignac committed “forgery,” and that the other
defendants conspired to “perpetuate and profit from
this forgery.” Tang stated Brignac’s criminal actions
of forgery “exceed that of alleged robo-signing” and
“constitute forgery under California Penal Code [section] 470 and specifically [section] 470(d),” and that
“[a] forged deed (or its assignment) is completely void
and ineffective to transfer any title to the grantee.”
Following a hearing, the trial court issued a
written order in February 2018 sustaining Chase’s
demurrer to the complaint on numerous grounds,
including that Tang lacked standing to challenge
Brignac’s execution of the assignment as a defect in
the foreclosure. The trial court also addressed various
arguments applicable to the individual causes of action,
ruling for instance that Tang could not plead a claim
for declaratory relief (first cause of action) because
he had not received leave from the court to do so and
that his slander of title (fourth cause of action) failed

App.10a
because he did not adequately plead malice. The trial
court rejected Tang’s theory of forgery as insufficient
to cure Tang’s lack of standing. The trial court did
not grant Tang leave to amend the complaint. In a
separate written order, the trial court sustained SPS’s
and U.S. Bank’s demurrer based in part on Tang’s
lack of standing.
The trial court also issued a written order sustaining Brignac’s demurrer to all causes of action. Among
other rulings, the trial court concluded that Tang
lacked standing. The trial court denied Tang’s request
for leave to amend the complaint against Brignac. The
trial court’s order on Brignac’s demurrer admonished
Tang’s counsel for unprofessional attacks on Brignac
made in a written submission to the court.
The trial court subsequently issued judgments of
dismissal in favor of all defendants. Tang timely
appealed the judgments of dismissal, and this court
assigned docket No. H045898 to the appeal.
Following the judgment dismissing it as a party,
Chase filed a motion in the trial court seeking to recover
its attorney fees pursuant to Civil Code section 1717
and an attorney fee provision in the deed of trust.
Tang opposed the motion, arguing that Chase had no
contractual right to enforce the attorney fee provision
based on its assignment of the loan in 2010 and
asserting Chase’s request for over $30,000 in attorney
fees was excessive. Chase replied that it was entitled
to recover its fees in its capacity as a prior servicer of
the loan.
On January 2, 2019, the trial court ordered Tang
to pay Chase $28,645 in attorney fees. The trial court
also entered a separate order granting Chase costs in

App.11a
the amount of $1,691.84 and granting Tang’s motion
to tax costs as to messenger fees.
Tang timely appealed the trial court’s January
2, 2019 order granting Chase attorney fees, and this
court assigned docket No. H046697 to the appeal.
This court ordered that Tang’s two appeals, docket
Nos. H045898 and H046697, be considered together
for oral argument and disposition.
II.

Discussion

In his appeal of the judgments of dismissal, Tang
argues the trial court erred in its conclusion that he
lacks standing to challenge the 2010 assignment
executed by Brignac. He contends he sufficiently
pleaded that Brignac forged the 2010 assignment of the
beneficial interest under the deed of trust, rendering
that assignment void, and the trial court erred in
deciding he lacked standing to challenge this wrongful
conduct. He also argues the trial court erred in refusing
him permission to amend his complaint, was biased
against him, and should have provided a court reporter
to him in light of his “modest means.”
In his appeal of the postjudgment attorney fee
order, Tang contends the trial court erred in determining that Chase was entitled to attorney fees
pursuant to the terms of the deed of trust.
We turn first to Tang’s appeal of the judgments
of dismissal.
A. Standards of Review
We review de novo the trial court’s decision to
sustain the demurrers. “‘In reviewing an order sustaining a demurrer, we examine the operative complaint

App.12a
de novo to determine whether it alleges facts sufficient
to state a cause of action under any legal theory.’
[Citation.] ‘ “ ‘ “We treat the demurrer as admitting all
material facts properly pleaded, but not contentions,
deductions or conclusions of fact or law. . . . We also
consider matters which may be judicially noticed.” . . .
Further, we give the complaint a reasonable interpretation, reading it as a whole and its parts in their
c o n t e x t . ’ ” ’ ” (Mathews v. Becerra (2019) 8 Cal.5th
756, 768.)
We review the trial court’s refusal to permit further amendment for abuse of discretion. (Schifando v.
City of Los Angeles (2003) 31 Cal.4th 1074, 1081.)
Where the demurrer was sustained without leave to
amend, we consider whether Tang could cure the defect
by an amendment. (T.H. v. Novartis Pharmaceuticals
Corp. (2017) 4 Cal.5th 145, 162.) Tang bears the burden
of proof on this issue. (Ibid.)
Chase contends, and we agree, that Tang has
forfeited any appeal of the trial court’s decision sustaining the demurrer to the causes of action for declaratory
relief (first cause of action) and cancellation of recorded
instruments based on Civil Code section 3412 (fifth
cause of action) by failing to present any argument in
his appellate briefing on these points. In his opening
brief, Tang neither argues how the trial court erred
in its rulings on these causes of action nor explains
how he might amend these causes of action in a new
complaint and therefore has forfeited any argument
challenging the trial court’s sustaining of the demurrers to these causes of action. (See Ram v. OneWest
Bank, FSB (2015) 234 Cal.App.4th 1, 9.)
We now turn to the four other causes of action in
the complaint: (1) statutory violations (second cause of

App.13a
action), (2) unlawful foreclosure (third cause of action),
(3) slander of title (fourth cause of action), and (4)
violation of California’s unfair competition law (Bus.
& Prof. Code, § 17200 et seq.) (UCL) (sixth cause of
action). Tang’s allegation that the 2010 assignment was
void because Brignac fraudulently executed or forged
the assignment underpins these causes of action.3 For
example, in the wrongful foreclosure cause of action,
the complaint alleges the 2010 assignment by Brignac
“was fraudulent, unlawful, and void” and therefore
certain documents emanating from that assignment
were “invalid and void” and thus defendants did not
have the legal right to conduct or participate in the
foreclosure sale.
Defendants on appeal maintain that Tang has no
standing to challenge the 2010 assignment. We first
consider the question of Tang’s standing and then
examine two other arguments made by Tang related
to the second and sixth causes of action.

3 The complaint also alleges the 2010 assignment was void as
untimely, because the securitized trust closed in 2005. The trial
court rejected that claim based on its finding that a defect in
the securitization process rendered the assignment voidable
and not void, and therefore Tang lacked standing to the extent
his action was predicated on the alleged untimely transfer. (See
Kalnoki v. First American Trustee Servicing Solutions, LLC (2017)
8 Cal.App.5th 23, 43 [holding that “a securitized trust made
after the trust’s closing date is merely voidable”].) On appeal,
Tang does not challenge that determination, and therefore we
do not address it further.

App.14a
B. Tang’s Standing to Challenge the 2010
Assignment
1. Standing Allegations in the Complaint
Tang’s complaint alleges he has standing to challenge the foreclosure because the foreclosing party
“lacked the authority to initiate the foreclosure because
it held no beneficial interest under the deed of trust,”
and the deed of trust grants him the right to challenge
the 2010 assignment and defendants’ rights to foreclose
upon his property.
In a section titled “factual allegations,” the complaint alleges that, on or about February 26, 2010,
Brignac “fraudulently executed” the assignment from
Chase to the securitized trust and falsely claimed to be
a “Vice President” of Chase. Among her “troubled past,”
the complaint generally alleges she engaged in robosigning of recorded documents.4 In addition to alleging
she lacked authority to execute the assignment, the
complaint also generally alleges that Brignac committed “forgery.” The complaint does not provide any
details about the alleged forgery.
2. Legal Principles Regarding Standing to
Challenge Assignment
“Standing is a threshold issue necessary to maintain a cause of action, and the burden to allege and
establish standing lies with the plaintiff.” (Mendoza
v. JPMorgan Chase Bank, N.A. (2016) 6 Cal.App.5th
802, 810 (Mendoza).) In this context, standing denotes
4 “The use of automated signatures” has been “colloquially referred
to as ‘robo-signing.’” (Greenwald & Bank, Cal. Practice Guide:
Real Property Transactions (The Rutter Group 2018) ¶ 6:536.16.)

App.15a
“a borrower’s legal authority to challenge the validity
of an assignment.” (Yvanova v. New Century Mortgage
Corp. (2016) 62 Cal.4th 919, 928, fn. 3 (Yvanova).)
The California Supreme Court addressed standing
in the postforeclosure context in Yvanova, supra, 62
Cal.4th 919. Yvanova held that a home loan borrower
who has suffered a nonjudicial foreclosure has standing
to challenge an invalid assignment to the foreclosing
entity that was “void” as opposed to merely “voidable.”
(Id. at pp. 942-943.) The California Supreme Court
stated that the borrower’s standing to challenge a
void assignment and sale derives from his or her
interest in ensuring that the beneficiary had legal
authority to foreclose (id. at p. 924), noting that
“[t]he borrower owes money not to the world at large
but to a particular person or institution, and only the
person or institution entitled to payment may enforce
the debt by foreclosing on the security.” (Id. at p. 938.)
Yvanova explained that a void transaction is “without
legal effect.” (Id. at p. 929.)
By contrast, an assignment that is merely voidable
does not afford standing to a non-party. As described
in a later decision by the Court of Appeal, “‘California
law,’ the Yvanova court explained, ‘does not give a
party personal standing to assert rights or interests
belonging solely to others. [Citations.] When an
assignment is merely voidable, the power to ratify or
avoid the transaction lies solely with the parties to
the assignment; the transaction is not void unless
and until one of the parties takes steps to make it so.
A borrower who challenges a foreclosure on the ground
that an assignment to the foreclosing party bore
defects rendering it voidable could thus be said to assert
an interest belonging solely to the parties to the

App.16a
assignment rather than to herself.’” (Yhudai v. IMPAC
Funding Corp. (2016) 1 Cal.App.5th 1252, 1256-1257
(Yhudai).) “A voidable transaction, in contrast, ‘is one
where one or more parties have the power, by a
manifestation of election to do so, to avoid the legal
relations created by the contract, or by ratification of
the contract to extinguish the power of avoidance.’”
(Yvanova, supra, 62 Cal.4th at p. 930.)

Yvanova did not decide whether the specific
allegations at issue in that case (involving alleged
defects in the securitization process) constituted a void
or voidable transaction. (Yvanova, supra, 62 Cal.4th
at p. 924.) However, post-Yvanova, several appellate
courts have explored the distinction between a void
and voidable assignment. For example, Saterbak v.
JPMorgan Chase, N.A. (2016) 245 Cal.App.4th 808
(Saterbak) considered whether a post-closing transfer of a note and deed of trust into a securitized trust
renders the assignment void. The court in Saterbak
held that an untimely assignment is voidable, not
void. (Id. at p. 815.) Saterbak further addressed the
allegation that a signature on the instrument was
“forged or robo-signed” and decided that the borrower
lacked standing to pursue those theories. (Id. at pp. 811,
814.) Similarly, Mendoza considered the assignment
of plaintiff’s deed of trust to the investment trust
after the trust’s closing date and alleged robo-signing
of the documents and concluded such defects make
an assignment voidable—not void. (Mendoza, supra,
6 Cal.App.5th at pp. 811, 817-820.)
3. Analysis
Tang’s central claim on appeal is that he sufficiently pleaded facts that the 2010 assignment is

App.17a
void, and therefore he has standing to challenge it
under the principles announced in Yvanova, supra,
62 Cal.4th 919. He acknowledges that if Brignac were
a “bonafide” executive of Chase who had robosigned
“hundreds of documents daily without reading them,”
he would not have standing to challenge the assignment as a matter of law. Tang argues, however, that
the facts he pleaded in his case are different in
nature because Brignac executed the assignment
without any authority from Chase and committed
“forgery.”
Having carefully reviewed his complaint, we are
not persuaded that Tang has met his burden of sufficiently pleading facts, as opposed to legal or factual
conclusions, that the 2010 assignment is void. Tang
generally points to the “standing” section in his
complaint, but this section discusses legal principles
and quotes from the Yvanova decision and other case
law. These allegations do not contain any facts.
We are further not required to accept his assertion
that the 2010 assignment was “void,” because that is
a legal—not a factual—conclusion. (Yhudai, supra, 1
Cal.App.5th at p. 1257.) Similarly, we are not required
to accept the conclusory allegations that Brignac acted
without authority or committed “forgery.” “‘[L]egal
conclusions,’ ‘adjectival descriptions’ . . . or ‘unsupported speculation’” are insufficient to withstand a demurrer. (Doe v. Roman Catholic Archbishop of Los Angeles
(2016) 247 Cal.App.4th 953, 960; see also Berryman v.
Merit Property Management, Inc. (2007) 152 Cal.App.
4th 1544, 1554.)
The only pertinent factual allegations pleaded in
the complaint are that Brignac signed the 2010
assignment as the “Vice President” of Chase when in

App.18a
fact she was not a Chase officer and was only
employed by the then-acting trustee, CRC. We do not
agree that this assertion, even if accepted as true,
renders the assignment void.
“A deed of trust to real property acting as security for a loan typically has three parties: the trustor
(borrower), the beneficiary (lender), and the trustee.”
(Yvanova, supra, 62 Cal.4th, at p. 926.) “The trustee
of a deed of trust is not a true trustee with fiduciary
obligations, but acts merely as an agent for the
borrower-trustor and lender-beneficiary.” (Id. at p. 927.)
There is no dispute that CRC was the trustee under
the deed of trust and therefore an agent of Chase,
the then-beneficiary. Tang’s complaint does not explicitly allege, nor does it allege any facts that would
give rise to a fair inference, that Brignac acted without Chase’s authority.
Tang’s unsupported legal conclusion that Brignac
committed forgery is also insufficient to survive demurrer. A forgery is a “‘“writing which falsely purports to
be the writing of another,”’ and is executed with the
intent to defraud.” (Schiavon v. Arnaudo Brothers
(2000) 84 Cal.App.4th 374, 382.) As a general matter,
signing someone else’s name is legally significant only
if it was unauthorized and perpetrated with fraudulent
intent. (See Pen. Code, § 470 [forgery requires signer’s
intent to defraud and knowledge that he or she lacks
authority to sign the name of another person]; Lewis
v. Superior Court (1990) 217 Cal.App.3d 379, 387
[crime of forgery under Pen. Code, § 470 derives from
common law definition of forgery].) Tang does not allege
that Brignac signed someone else’s name, the signature
as it appears in the 2010 assignment attached to the
complaint is not Brignac’s signature, or the document

App.19a
was somehow altered. He does not specifically allege
that Brignac signed the document without Chase’s
permission. The complaint does not allege Chase ever
disputed the legitimacy of the 2010 assignment.
Even assuming arguendo that the complaint adequately alleged that Brignac either acted without
Chase’s authority when she signed the assignment or
that she committed forgery (and the complaint alleges
no specific facts supporting those conclusions), Chase
could have ratified these actions. (Rakestraw v.
Rodrigues (1972) 8 Cal.3d 67, 73-74 [holding that a
principal may ratify a forgery done by its agent]; Cal.
U. Com. Code § 3403(a) (stating that “[a]n unauthorized
signature may be ratified” and noting in a comment
that “‘[u]nauthorized’ signature is defined . . . as one
that includes a forgery as well as a signature made by
one exceeding actual or apparent authority”]; Navrides
v. Zurich Ins. Co. (1971) 5 Cal.3d 698, 703-704 [holding
a principal may ratify agent’s unauthorized act].)
Because an unauthorized or forged signature can be
ratified, such defects render the assignment voidable,
not void. (See Yvanova, supra, 62 Cal.4th at p. 930.)
In support of his contention the 2010 assignment
is void, Tang relies on the holding of Sciarratta v.
U.S. Bank National Assn. (2016) 247 Cal.App.4th 552
(Sciarratta). However, Sciarratta is materially distinguishable. It involved the problem that a successor
of the original lender (Chase) made two successive
assignments of the same deed of trust (first to Deutsche
Bank and then to Bank of America), and Bank of
America foreclosed despite having received nothing
under the second assignment. (Id. at p. 564.) That
holding has no relevance to the allegations at issue
here, which do not describe competing assignments

App.20a
of the same deed of trust. In this case, even accepting
the properly pleaded allegations in the complaint as
true, the defects in the 2010 assignment render it
voidable, rather than void. Accordingly, Tang does
not have standing to challenge the defects in that
assignment.
In reaching our conclusion, we have considered

WFG National Title Insurance Company v. Wells
Fargo Bank, N.A. (2020) 51 Cal.App.5th 881 (WFG).5
In WFG, Wells Fargo Bank, N.A. (the undisputed
beneficiary of a valid deed of trust) and SPS (the loan
servicer) argued that a subsequent deed that recorded
a sham conveyance had been forged, and therefore
5 After this appeal was fully briefed, on July 15, 2020, Tang filed
a document captioned “Notice of Recently Published Case” that
cited to WFG. SPS and U.S. Bank filed a response to Tang’s
document arguing at length that WFG did not support Tang’s
claims. In response, Tang filed an objection and request to strike
SPS’s and U.S. Bank’s responsive document. Shortly thereafter,
in a separate filing, Chase and Brignac submitted an objection
to Tang’s July 15, 2020 original notice, arguing the document
violates California Rules of Court, rule 8.254(b), which permits
the citation of new authority to be by letter in which only the
citation of authority is presented, without “argument or other
discussion of the authority.”
Having reviewed the various submissions related to Tang’s July 15,
2020 notice, we conclude that the notice does include argument
and discussion of WFG and therefore does not comply with
California Rules of Court, rule 8.254(b). We therefore have only
considered the authority cited by Tang and have disregarded
his discussion and argument contained in that document. In
light of the limited consideration we have given that document,
we decline to strike it in its entirety. Turning to Tang’s objection
to, and request to strike SPS and U.S. Bank’s submission, we
likewise decline to strike their submission. Nevertheless, we
have not considered the substance of their response.

App.21a
the forged deed was void. (Id. at pp. 884-886.) The
trial court agreed the forged deed was void. The
Court of Appeal held that the trial court did not err
as a matter of law in finding the deed of trust was
void as opposed to voidable because the deed of trust
was forged, given that the face of the deed falsely
stated the deed was recorded by the trustee. (Id. at p.
890.)

WFG does not support Tang’s contention in this
appeal that he has standing because it does not
address the question of whether a third-party (in this
case Tang) rather than the beneficiary (in WFG, the
bank) has standing. Indeed, it does not address the
concept of standing at all. Moreover, for the reasons
stated above, Tang’s unsupported allegation that
Brignac committed forgery in the assignment was a
legal conclusion insufficient to withstand demurrer.
WFG, therefore, does not assist Tang in his contention
that he has standing to challenge the validity of the
2010 assignment.
Tang’s complaint, at best, establishes that the
2010 assignment was voidable by Chase—not void ab
initio. Because the complaint does not allege sufficient
facts to establish that the assignment in 2010 was
void, his challenge to the assignment through the
four causes of action for statutory violations, unlawful
foreclosure, slander of title, and violation of the UCL
fails as a matter of law for lack of standing.
4. Standing Based on Language in the
Deed of Trust
Tang further contends that language in the deed
of trust granted him, as the borrower, the right to
sue “to assert the non-existence of a default or any

App.22a
other defense of Borrower to acceleration and sale.”
Tang has not asserted the nonexistence of a default,
and his only purported “defense” to foreclosure is
that the 2010 assignment is void. We have rejected
that contention. Accordingly, the contractual language
does not assist him here. (Yhudai, supra, 1 Cal.App.5th
at p. 1260 [considering nearly identical language in
deed of trust and rejecting claim of standing to attack
validity of assignment based on that language].)
Tang also emphasizes the deed of trust was prepared by WaMu (the predecessor in interest to Chase)
and, citing generally to Civil Code section 1654, argues
that any ambiguity should be construed in his favor.
However, Civil Code section 1654 states: “In cases of
uncertainty not removed by the preceding rules, the
language of a contract should be interpreted most
strongly against the party who caused the uncertainty
to exist.” This interpretive rule has no relevance here.
Tang does not point to any ambiguity, and furthermore
Civil Code section 1654 “does not stand for the
proposition that, in every case where one of the parties
to a contract points out a possible ambiguity, the
interpretation favored by the nondrafting party will
prevail.” (Rainier Credit Co. v. Western Alliance Corp.
(1985) 171 Cal.App.3d 255, 263.)
C. HBOR Claims
Alternatively, Tang contends he has standing
and has pleaded claims under the Homeowner’s Bill
of Rights (HBOR). We understand his contention to
apply to his second cause of action (for statutory
violations) and sixth cause of action (UCL claim),
which expressly refer to and quote certain provisions
of the HBOR.

App.23a
The HBOR was enacted in 2012, “while California
was ‘still reeling from the economic impacts of a
wave of residential property foreclosures that began
in 2007[.]’ [T]he legislation sought to ‘modify[] the
foreclosure process to ensure that borrowers who may
qualify for a foreclosure alternative are considered for,
and have a meaningful opportunity to obtain, available
loss mitigation options.’ (Stats. 2012, ch. 87, § 1, subds.
(a), (b)).” (Lucioni v. Bank of America, N.A. (2016) 3
Cal.App.5th 150, 157 (Lucioni).) The HBOR went
into effect in January 2013. (Lueras v. BAC Home
Loans Servicing, LP (2013) 221 Cal.App.4th 49, 86,
fn. 14.) The HBOR does not apply retroactively and
does not independently grant Tang standing to
challenge the 2010 assignment. (See Saterbak, supra,
245 Cal.App.4th at p. 818.)
To the extent his claims pertain to events subject
to the HBOR (the foreclosure sale that occurred in
2017), Tang does not mention or discuss the trial
court’s finding that his HBOR claims were largely
conclusory and unsupported by any facts. Having
independently reviewed the complaint, we agree with
the trial court’s determination that the conclusory
nature of his allegations that defendants violated the
HBOR are not sufficient to survive demurrer. For example, the complaint alleges defendants violated
Civil Code section 2924.17, subdivision (b) of the
HBOR, which requires that, prior to recording or
filing any foreclosure-related documents, “a mortgage
servicer shall ensure that it has reviewed competent
and reliable evidence to substantiate the borrower’s
default and the right to foreclose, including the borrower’s loan status and loan information.” (Civ. Code,
§ 2924.17, subd. (b).) With respect to that HBOR pro-

App.24a
vision, the complaint alleges that defendants foreclosed
on the subject property “without ensuring that they
had reviewed competent and reliable evidence to [sic]
giving them the right to foreclose.” The complaint does
not plead any facts explaining how defendants violated
this provision of the HBOR including what evidence
they failed to review prior to foreclosure. Therefore,
Tang’s causes of action in the complaint based on
purported violations of the HBOR fail as a matter of
law.6
D. UCL Claim Based on “Stale” Notice of Default
Tang also asserts that he sufficiently pleaded
claims based on the complaint’s allegations that the
2010 notice of default (NOD) was “stale.” The UCL
claim (sixth cause of action) in the complaint expressly
alleges that the nonjudicial foreclosure sale was premised on a “stale, and no longer valid due to staleness,
notice of default recorded in 2010.” The complaint
alleges the NOD was stale because the foreclosure
sale did not actually occur until approximately seven
years later, in 2017.
As this allegation that the NOD was stale does
not appear to hinge on Tang’s standing, we review the
complaint to determine whether the trial court erred
in concluding that it failed to state any cognizable
claim on this point. The trial court decided that any
argument predicated on the NOD’s staleness failed
6 We note that Tang’s statutory violations cause of action also
alleged violations of provisions of the Penal Code related to the
procurement, offering, or filing of forged instruments. Tang
raises no claim on appeal as to these alleged violations, and the
trial court correctly concluded Tang has no standing to enforce
criminal statutes.

App.25a
because there “are no statutory provisions requiring
a foreclosing entity to re-issue a notice of default
after a specified time.”
The nonjudicial foreclosure process is formally
initiated when the trustee records a notice of default.
(Yvanova, supra, 62 Cal.4th at p. 927.) “The statutory
notice of default is intended to give notice of the
trustor’s default to ‘the trustor, the trustor’s successors,
to junior lienors, other interested persons, and . . . to
the world.’” (Kachlon v. Markowitz (2008) 168 Cal.App.
4th 316, 339.) At the time the NOD was recorded in
March 2010, there was no requirement that the NOD
be reissued. (See Lucioni, supra, 3 Cal.App.5th at p.
157 [noting that most of the HBOR provisions contain “procedures to help borrowers obtain alternatives
to foreclosure” and also noting that most of the
provisions “place duties upon a lender before it may
record a notice of default” (id. at p. 158) (italics added)].)
Further, Tang does not allege that the lender failed
to satisfy any of the explicit statutory requirements
applicable to the NOD. (See former Civ. Code, § 2924
[listing required statements to be included in a
notice of default]; former Civ. Code, § 2923.5; Mabry
v. Superior Court (2010) 185 Cal.App.4th 208, 213214 [former Civ. Code, § 2923.5 requires, “before a
notice of default may be filed, that a lender contact
the borrower in person or by phone to ‘assess’ the
borrower’s financial situation and ‘explore’ options to
prevent foreclosure”].)
On appeal, Tang argues the HBOR imposed “new”
requirements on notices of default that made notices
of default “recorded prior to January 1, 2013 out of
date, i.e., stale.” Tang fails to provide any authority
supporting his position, and the HBOR does not apply

App.26a
retroactively. (See Saterbak, supra, 245 Cal.App.4th
at p. 818.) Our independent research has not uncovered
any such requirement. Nor does our review of the
HBOR suggest that the Legislature intended that a
pre-HBOR notice of default would become invalid
upon enactment of the HBOR. Therefore, the trial
court did not err in sustaining the demurrer to the
complaint for failing to state a cognizable claim.
We also reject Tang’s unsupported claim that
the 2010 NOD was invalid because it contained an
older default figure. Tang does not provide any legal
authority for the proposition that the NOD was invalid
because it did not contain an updated default amount,
and he does not dispute that he received notice of his
default and was in default during the pertinent time
period. Nor does he dispute (as reflected in the
trustee’s deed upon sale attached to the complaint)
that the loan was in default in an even greater
amount by 2017 than it had been in 2010. He does
not contend he paid any amount of the default.
For the above reasons, we conclude the trial court
did not err in sustaining the demurrer as to Tang’s
UCL claim that alleged the NOD was stale or invalid
because it did not contain an updated figure of the
amount in default.
E. Leave to Amend
As noted earlier, after a demurrer is sustained
without leave to amend, on appeal we consider
“whether there is a ‘reasonable possibility’ that the
defect in the complaint could be cured by amendment.
[Citation.] The burden is on plaintiffs to prove that
amendment could cure the defect.” (King v. Comp Partners, Inc. (2018) 5 Cal.5th 1039, 1050.) Tang

App.27a
addresses this issue by pointing to his statement of
decision filed with the trial court that proposed
amending the complaint to allege the notice of default
was “stale” into each cause of action, and that Brignac
committed “forgery” and the other defendants conspired
to “perpetuate and profit from this forgery.” He stated
Brignac’s criminal actions of forgery “exceed that of
alleged robo-signing,” and that “[a] forged deed (or its
assignment) is completely void and ineffective to transfer any title to the grantee.” These assertions do not
assist Tang for the reasons we have explained above,
namely that they are comprised of either unsupported
conclusions (i.e., the instruments are “void” or Brignac
committed forgery) or are based on the faulty legal
premise that the notice of default become “stale” over
time and had to be reissued prior to foreclosure.
Because there is no reasonable possibility that the
defects in Tang’s complaint could be cured by amendment, the trial court did not abuse its discretion in
sustaining the demurrers without leave to amend.
(Barroso v. Ocwen Loan Servicing, LLC (2012) 208 Cal.
App.4th 1001, 1008.)7

7 In light of this conclusion, we need not address defendants’
arguments that the judgment should be affirmed on alternative
grounds, such as that Tang failed to allege willingness or ability
to tender the outstanding amount of the debt, the recordings at
issue in the slander of title cause of action were privileged, and
Tang failed to allege an injury caused by defendants’ purported
UCL violations.

App.28a
F. Other Claims Related to Demurrer Proceedings
1. Lack of Court Reporter
Tang also suggests that his rights were violated
because the Santa Clara County Superior Court no
longer provides court reporters in civil matters, and
that persons of “modest means” such as himself are
faced with paying for a reporter at “significant cost.”
The record on appeal does not contain any reporter’s
transcripts.
In his written filings with the trial court that
are included in the record, Tang did not request that
the trial court provide him with a court reporter nor
object to the lack of a court reporter. Tang filed a
statement explaining how he would amend his complaint in which he noted that court reporters were
not provided, but he made no objection on that ground.
Based on these circumstances, we conclude Tang has
forfeited any challenge to the lack of a court-provided
court reporter. (See Children’s Hosp. & Medical Center
v. Bontά (2002) 97 Cal.App.4th 740, 776.)
Moreover, even if we were to deem the claim not
forfeited, Tang has not established prejudicial error.
(Cal. Const., art. VI, § 13; Cassim v. Allstate Ins. Co.
(2004) 33 Cal.4th 780.) Tang does not articulate any
legal error, let alone prejudicial error, connected to
his failure to procure a court reporter. He does not
assert or explain how the lack of a reporter’s transcript
in the appellate record prevents our review of his
claims. It is well settled that we must independently
review his complaint (see City of Dinuba v. County of
Tulare (2007) 41 Cal.4th 859, 865), and we have done
so.

App.29a
We are also able to review Tang’s claim that the
trial court should have permitted him to amend the
complaint for a third time. Tang filed a statement of
how he would amend his complaint, and the trial court
permitted him to “orally argue from the document.”
For the reasons we have explained, we reject, on its
merits, his claim that the trial court abused its discretion in refusing to grant him leave to amend.
Moreover, he had the opportunity to present new
facts on appeal; he has not done so. (See Total Call
Internat. Inc. v. Peerless Ins. Co. (2010) 181 Cal.App.
4th 161, 166.) Given the circumstances of this case, we
decline Tang’s invitation that we articulate “guidelines”
for the trial court to follow to preserve the record
whenever a litigant is of “modest means.”
2. Judicial Bias
Tang asserts the trial court demonstrated improper
bias when it took offense to statements made by
Tang’s counsel that compared Brignac to a Nazi soldier.
We have reviewed the court’s statements cited by
Tang, and we do not agree they show any improper
bias by the trial court. Our review of the record has
found nothing that suggests “a reasonable person would
entertain doubts concerning the judge’s impartiality”
(Christie v. City of El Centro (2006) 135 Cal.App.4th
767, 776) or that “‘would cause us to lack confidence
in the fairness of the proceedings such as would
necessitate reversal’” (Haluck v. Ricoh Electronics, Inc.
(2007) 151 Cal.App.4th 994, 1008). We therefore reject
Tang’s argument of improper judicial bias.
For these reasons, we reject Tang’s arguments
against the trial court’s orders sustaining the demurrers

App.30a
and therefore affirm the judgments of dismissal.8 We
turn now to his appeal of the postjudgment order
awarding Chase attorney fees.
G. Appeal of Attorney Fee Award (Docket No.
H046697)
Following the judgment of dismissal of the complaint against it, Chase moved for attorney fees.9 In
support of its request, Chase relied on contractual
provisions in the deed of trust. In particular, it contended it was a beneficiary of section 9 of that contract in its capacity as a former servicer of the loan and
primarily cited Civil Code section 1717 in support of
its fee motion.10 On January 2, 2019, the trial court

8 We deny Tang’s request for judicial notice of an article purportedly published in the Daily Journal on September 11, 2019, and
titled “UCLA professor uncovers nationwide scams involving
fake court orders.” Chase and Brignac opposed Tang’s request
on numerous grounds. Having reviewed all the submissions
related to Tang’s request, we are not persuaded this article is
relevant to any material issue here. (See People ex rel. Lockyer
v. Shamrock Foods Co. (2000) 24 Cal.4th 415, 422, fn. 2.) We
therefore deny Tang’s request.
9 It appears only Chase sought attorney fees in the trial court
from Tang. The other defendants are not parties to docket No.
H046697.
10 Appellant’s opening brief suggests he also seeks to appeal
the trial court’s award of $1,691.84 in costs to Chase. However,
his notice of appeal does not reflect an appeal of that order and
does not mention costs at all. Likewise, his civil case information
statement attaches only the attorney fee order as the order
being appealed. On this record, we conclude we do not have
jurisdiction to consider any appeal of the order awarding costs
to Chase. (Cal. Rules of Court, rule 8.100(a)(2).)

App.31a
entered an order awarding Chase $28,645 in attorney
fees.
Tang contends the trial court erred in this order
because the language in the deed of trust, the contract
underpinning Chase’s attorney fee request, does not
provide for an award of attorney fees to Chase. Tang
appeals only the legal basis for the attorney fee
award and does not argue the trial court abused its
discretion in the calculation of the award.
1. Additional Background
Chase primarily cites to sections 9 and 14 as the
provisions of the deed of trust (DOT) relevant to its
entitlement to attorney fees.11 Section 9 of the DOT,
titled “Protection of Lender’s Interest in the Property
and Rights Under this Security Instrument,” provides
in relevant part: “If (a) Borrower fails to perform the
covenants and agreements contained in this Security
Instrument, [or] (b) there is a legal proceeding that
might significantly affect Lender’s interest in the Property and/or rights under this Security Instrument . . .
then Lender may do and pay for whatever is reason11 Chase also argues on appeal that sections 11 and 22 in the
DOT expressly provide for an award of attorney fees. We have
reviewed those provisions and do not agree they specifically
provide for the award of attorney fees. Section 11 is titled
“Assignment of Miscellaneous Proceeds; Forfeiture” and does
not discuss the provision of attorney fees but rather is directed
to the “proceeds of any award or claim for damages.” Section 22
is titled “Acceleration; Remedies” and states the lender, when
“pursing the remedies provided in this Section 22,” is entitled to
“including, but not limited to, reasonable attorneys’ fees and
costs of title evidence.” We do not read this language as reasonably
allowing attorney fees to be recovered in a postforeclosure
litigation.

App.32a
able or appropriate to protect Lender’s interest in the
Property and rights under this Security Instrument,
including . . . (c) paying reasonable attorneys’ fees to
protect its interest in the Property and/or rights
under this Security Instrument.”
Section 9 of the DOT also states: “Any amounts
disbursed by Lender under this Section 9 shall become
additional debt of Borrower secured by this Security
Instrument. These amounts shall bear interest at the
Note rate from the date of disbursement and shall be
payable, with such interest, upon notice from Lender
to Borrower requesting payment.”
Section 14 of the DOT, titled “Loan Charges,”
states in relevant part, “Lender may charge Borrower
fees for services performed in connection with Borrower’s default, for the purpose of protecting Lender’s
interest in the Property and rights under this Security
Instrument, including, but not limited to, attorneys’
fees.”
In July 2018, citing to section 9 of the DOT, Chase
moved for attorney fees relying on Civil Code section
1717, Code of Civil Procedure sections 1021 and 1033,
subdivision (a)(10), and California Rules of Court, rule
3.1702(a). Chase conceded that it was not a signatory
to the deed of trust but nevertheless asserted it was
entitled to fees as a servicer of the loan from 2008
until 2013. Chase filed a request for judicial notice
requesting the trial court take notice of the DOT
(dated June 2005) and other documents.
Chase requested an award of $31,338.18, which it
contended represented its reasonable fees, and included
“prospective fees expected to be incurred in the
prosecution of this Motion (opposition review, reply,

App.33a
hearing attendance).” Chase submitted declarations
connected with the fees requested that included
billing statements.
Tang filed an opposition to Chase’s request, contending, among other arguments, that Chase had no
contractual basis to seek attorney fees as the foreclosure sale had extinguished the deed of trust, Chase
was not the lender under section 22 of the deed of
trust, and Chase was not an intended third party
beneficiary of that contract.
In September 2018, the trial court entered an
order granting attorney fees in favor of Chase but
requested that Chase submit a more detailed chart
setting out the hours expended by each attorney and
the amounts charged by hour for that attorney. On
October 11, 2018, Chase filed a supplemental declaration that attached a spreadsheet setting out the total
amount of time and fees sought by Chase. Chase
stated that the total amount spent through the filing
of the motion was $28,645.
On January 2, 2019, the trial court issued the
attorney fee order underlying this appeal. The trial
court granted Chase’s motion for attorney fees in
part and ordered Tang to pay Chase fees in the
amount of $28,645. Regarding Chase’s entitlement to
fees, the trial court’s written order stated, “The Court
finds that, as argued by [Chase], the subject agreement
was not extinguished by the foreclosure on the subject property, only the security; that the agreement
in question provided for attorney fees to the prevailing party in any litigation; and[] that Chase is
the prevailing party and is entitled to an award of
attorney fees.” The trial court did not explain which
“agreement” it was referring to, but the parties on

App.34a
appeal cite the DOT as the sole contractual basis for
the trial court’s attorney fee award.
2. Legal Principles
We review de novo the legal basis for an attorney
fee award. (Mountain Air Enterprises, LLC v. Sun downer Towers, LLC (2017) 3 Cal.5th 744, 751
(Mountain Air).) “Under the American rule, each
party to a lawsuit ordinarily pays its own attorney
fees. [Citation.] Code of Civil Procedure section 1021,
which codifies this rule, provides: ‘Except as attorney’s
fees are specifically provided for by statute, the
measure and mode of compensation of attorneys and
counselors at law is left to the agreement, express or
implied, of the parties. . . . ’ . . . Thus, ‘“[p]arties may
validly agree that the prevailing party will be awarded
attorney fees incurred in any litigation between
themselves, whether such litigation sounds in tort or
in contract.”’” (Ibid.)
“If such litigation does sound in contract, however,
an agreement allocating attorney fees may be ‘within
the scope of [Civil Code] section 1717’ and subject to
its restrictions. [Citation.] ‘Before section 1717 comes
into play, it is necessary to determine whether the
parties entered an agreement for the payment of
attorney fees, and if so, the scope of the attorney fee
agreement.’ [Citation.] This determination requires
us to apply traditional rules of contract interpretation.”
(Mountain Air, supra, 3 Cal.5th at p. 752, fn. omitted.)
In accordance with the parties’ arguments on appeal,
we consider only the DOT as the relevant agreement
allocating attorney fees.

App.35a
3. Analysis
Having considered the language of the deed of
trust provisions and the authorities cited by both
parties, we conclude that the language in the deed of
trust does not support the attorney fee award to Chase
ordered by the trial court. In Hart v. Clear Recon
Corp. (2018) 27 Cal.App.5th 322, 325, 326-329 (Hart),
which involved a wrongful foreclosure action, the
Second District Court of Appeal, Division Eight, analyzed section 1717 and a deed of trust provision identical
to section 9 of the DOT. Based on the same language
contained in section 9 here, which provided that
amounts incurred by lender would become additional
debt of borrower, the Court of Appeal concluded that
the plain language of the provision did not satisfy
section 1717’s requirement that there be a contractual provision that specifically provides that attorney’s
fees and costs “‘shall be awarded’” either to one of the
parties or the prevailing party. (Id. at pp. 325, 327.)
Rather, the pertinent provision stated “that attorney’s
fees, like any other expenses the lender may incur to
protect its interest, will be added to the secured
debt.” (Id. at p. 327.) Based on that language, the court
concluded that the agreement did not contemplate
the provision of attorney fees. (Ibid.)
The parties to the DOT here similarly agreed
that attorney fees incurred as described under section 9
would become additional debt secured by the deed of
trust and that the lender could “charge” the borrower
fees for services performed in connection with the
borrower’s default, including attorney fees, under section 14. In our view, the plain language of these
provisions in the DOT do not specifically provide for

App.36a
a freestanding attorney fee award to a party or a prevailing party. Thus, section 1717 does not apply.
Chase in its briefing cites to Chacker v. JPMorgan
Chase Bank, N.A. (2018) 27 Cal.App.5th 351 (Chacker)
as support for the trial court’s attorney fee order.
However, Chacker does not assist Chase. In Chacker,
the Second District Court of Appeal, Division Five,
construed a claim by Chase and CRC for attorney
fees based on a deed of trust with language identical
to that in the DOT at issue in this appeal. The court
in Chacker concluded that the language of the deed
of trust did not entitle Chase and CRC to a freestanding
attorney fee award as had been ordered by the trial
court, stating that it was “essentially” construing
section 9 in the same way as in Hart. (Id. at p. 358,
fn. 6.) Moreover, the Chacker court further analyzed
the import of section 14, an issue not reached in
Hart, and held that that provision did not allow for
an attorney fee award. (Id. at pp. 357, 358, fn. 6.)
The court in Chacker explained, “Where not authorized by statute, entitlement to attorney fees derives
from the contractual terms chosen. Just as parties
may limit or expand the circumstances under which
attorney fees are awardable [citation], they may also
limit or expand how those attorney fees may be
obtained. Here, the parties to the deed of trust agreed
attorney fees incurred as described under section 9
would become additional debt secured by the deed of
trust. They also agreed the lender could ‘charge’ the
borrower fees for services performed in connection
with the borrower’s default, including attorney fees,
under section 14. As we have explained, the trust deed
is properly read (only) to permit attorney fees to be
added to the borrower’s promissory note obligation,

App.37a
and the terms of the trust deed itself are all the
‘authority’ that is necessary under the circumstances.”
(Chacker, supra, 27 Cal.App.5th at p. 357.)
We recognize that Chacker is a preforeclosure case.
However, as we are interpreting the same attorney fee
provision language here and the DOT makes no distinction in this regard, this factual difference does
not affect the analysis of the contractual language.
Thus, even if we were to follow Chacker, as Chase
urges, the decision at most supports the conclusion
that sections 9 and 14 of the DOT provide only that
attorney fees may be added to the borrower’s promissory note obligation. Chacker’s reasoning does not
support the trial court’s attorney fee order here, which
ordered attorney fees after the property was sold at a
nonjudicial foreclosure sale, which extinguished any
obligation Tang had under the promissory note.
The other cases Chase relies on to support the
attorney fee order also do not assist Chase, because
those other cases relied on additional contractual
language to support the fee award. In Lacayo v.
Seterus, Inc., Case No. CV1702783-AB (JEMx) (CD
Cal., June 25, 2018,) [2018 WL 3326662] (Lacayo),
the federal district court relied in part on a provision
in the promissory note that stated, in the event of a
default, the defendant has “‘the right to be paid back
by [Plaintiffs] for all of its costs and expenses in
enforcing this [n]ote. . . . Those expenses include, for
example, reasonable attorney’s fees.’” (Id. at *3.)
Chase relied upon no such provision here and, based
on our review, the promissory note was not included
as part of Chase’s motion for attorney fees and does
not appear elsewhere in the record on appeal.

App.38a
In Jones v. Union Bank of California (2005) 127
Cal.App.4th 542, the promissory note stated if it
were “not paid, the makers would ‘pay all costs of
collection including, . . . reasonable attorneys’ fees, and
all expenses in connection with the protection or
realization of the collateral securing th[e] Note.’” (Id. at
p. 544.) In addition, the guarantee of the note contained
a provision for attorney fees in “‘proceedings involving
Guarantors that in any way affect the exercise by
Lender of its rights and remedies hereunder.’” (Ibid.)
This language is materially different from that in the
DOT here, which does not affirmatively permit an
attorney fee award but rather only permits the lender
to “charge” the fees to the outstanding amount due.
Chase does not point to any other contractual
language in the DOT that supports its entitlement to
attorney fees following the nonjudicial foreclosure sale
of the property. For these reasons, we conclude the trial
court erred in its award of attorney fees to Chase.
III. Disposition
In appeal No. H045898, the judgments of dismissal
are affirmed. In appeal No. H046697, the trial court’s
January 2, 2019 order awarding Chase its attorney
fees is reversed. In the interests of justice, the parties
shall bear their own costs on appeal.
/s/
Danner, J.
WE CONCUR:
/s/

Greenwood, P.J. /s/

Grover, J.

App.39a
JUDGMENT ORDER OF THE SUPERIOR COURT
OF CALIFORNIA FOR THE COUNTY OF
SANTA CLARA IN FAVOR OF JPMORGAN CHASE
BANK, N.A. AND DEBORAH BRIGNAC
(JUNE 18, 2018)
SUPERIOR COURT OF THE
STATE OF CALIFORNIA FOR THE
COUNTY OF SANTA CLARA
________________________
VINCENT TANG,

Plaintiff,
v.
JPMORGAN CHASE BANK; QUALITY LOAN
SERVICE CORPORATION; DEBORAH BRIGNAC;
U.S. BANK, NA; SELECT PORTFOLIO SERVICING;
ORCHID TERRACE INC. (25%); MONTE VISTA
OAKS, INC. (25%); MONTE VISTA OAKS DB PLAN
(25%); KIP DREAM HOMES (25%); and DOES 1-20,

Defendants.
________________________
Case No.: 17CV307324
Before: Mary E. ARAND, Judge.
JUDGMENT IN FAVOR OF JPMORGAN CHASE
BANK, NA AND DEBORAH BRIGNAC
Action Filed: March 15, 2017

App.40a
TO ALL PARTIES AND THEIR ATTORNEYS OF
RECORD HEREIN:
Having sustained the demurrers of Defendants
JPMorgan Chase Bank, NA. (“Chase”) and Deborah
Brignac (“Brignac”), to the second amended complaint
(“SAC”) of plaintiff Vincent Tang (“Plaintiff”) on
February 7, 2018, in its entirety without leave to amend
and GOOD CAUSE APPEARING, IT IS HEREBY
ORDERED, ADJUDGED AND DECREED THAT:
1.

The action is hereby dismissed with prejudice
as to Defendant Chase.

2.

The action is hereby dismissed with prejudice
as to Defendant Brignac.

3.

Plaintiff shall take and recover nothing by
way of the action as against Defendant Chase.

4.

Plaintiff shall take and recover nothing by
way of the action as against Defendant
Brignac.

5.

Judgment of dismissal is entered in favor of
Defendant Chase and against Plaintiff.

6.

Judgment of dismissal is entered in favor of
Defendant Brignac and against Plaintiff.

7.

Defendant Chase may submit a memorandum
of costs.

8.

Defendant Brignac may submit a memorandum of costs.

IT IS SO ORDERED.
/s/ Hon. Mary E. Arand
Judge of the Superior Court
DATE: May 25, 2018

App.41a
KIRKLAND & ELLIS LLP
By: /s/ Jonathan M. Weiss
Attorneys for Defendant
Deborah Brignac
DATE: April 16, 2018

PARKER, IBRAHIM & BENG
By: /s/ Bryant S. Delgadillo
Mariel Gerlt-Ferraro
Louis Chang
Attorneys for Defendant
JPMorgan Chase Bank, N.A.
DATED: April 24, 2018

App.42a
JUDGMENT OF THE SUPERIOR COURT
OF CALIFORNIA FOR THE COUNTY OF
SANTA CLARA AFTER DEMURRER
IN FAVOR OF U.S. BANK AND SPS
(APRIL 6, 2018)
SUPERIOR COURT OF THE STATE OF
CALIFORNIA COUNTY OF SANTA CLARA
________________________
VINCENT TANG,

Plaintiff,
v.
JPMORGAN CHASE BANK; QUALITY LOAN
SERVICE CORPORATION; DEBORAH BRIGNAC;
U.S. BANK, NA; SELECT PORTFOLIO SERVICING;
ORCHID TERRACE INC. (25%); MONTE VISTA
OAKS, INC. (25%); MONTE VISTA OAKS DB PLAN
(25%); KIP DREAM HOMES (25%); and DOES 1-20,

Defendants.
________________________
Case No.: 17CV307324
Before: Mary E. ARAND, Judge.
JUDGMENT AFTER DEMURRER
Date: January 30, 2018
Time: 9:00 a.m.
Dept.: 9
Action Filed: 3/15/17
Trial Date: TBD

App.43a
On January 30, 2018, the Court issued its Order
Re: Demurrer in response to the demurrer of
Defendants SELECT PORTFOLIO SERVICING, INC,
and U.S. BANK, N.A., SUCCESSOR TRUSTEE TO
BANK OF AMERICA, NA, SUCCESSOR IN INTEREST TO LASALLE BANK NA, AS TRUSTEE, ON
BEHALF OF THE HOLDERS OF THE WAMU MORTGAGE PASS-THROUGH CERTIFICATES, SERIES
2005-AR19 (“Defendants”) to Plaintiff VINCENT
TANG’s Second Amended Complaint. The Order is
attached as Exhibit A.
Accordingly, IT IS HEREBY ORDERED that
Plaintiff’s action against Defendants is DISMISSED
WITH PREJUDICE. A final JUDGMENT OF DISMISSAL is hereby entered against Plaintiff and in favor
of Defendants SELECT PORTFOLIO SERVICING,
INC. and U.S. BANK, N.A., SUCCESSOR TRUSTEE
TO BANK OF AMERICA, NA, SUCCESSOR IN
INTEREST TO LASALLE BANK NA, AS TRUSTEE, ON
BEHALF OF THE HOLDERS OF THE WAMU
MORTGAGE PASS-THROUGH CERTIFICATES,
SERIES 2005-AR19. Plaintiff shall take nothing by
way of their claims against these Defendants. These
Defendants are the prevailing party entitled to recover
such costs of suit as are allowed by law.
/s/ Hon. Mary E. Arand
Judge of the Superior Court
Dated: 3-16-2018
Approved as to Form.
By: /s/
Thomas Spielbauer
Attorney for Plaintiff Vincent Tang
Dated:

App.44a
ORDER OF THE SUPERIOR COURT OF
CALIFORNIA, COUNTY OF SANTA CLARA RE:
DEMURRER AND MOTION TO STRIKE BY
DEFENDANT DEBORAH BRIGNAC
(FEBRUARY 7, 2018)
SUPERIOR COURT OF THE STATE OF
CALIFORNIA COUNTY OF SANTA CLARA
________________________
VINCENT TANG,

Plaintiff,
v.
JPMORGAN CHASE BANK; ET AL.,

Defendants.
________________________
Case No.: 17-CV-307324
Before: Mary E. ARAND, Judge.
ORDER RE: DEMURRER AND MOTION TO
STRIKE BY DEFENDANT DEBORAH BRIGNAC
DECISION ON SUBMITTED MATTER
The demurrer to the second amended complaint
and motion to strike filed by defendant Deborah
Brignac came on for hearing before the Honorable
Mary E. Arand on February 6, 2018, at 9:00 a.m. in

App.45a
Department 9.1 The matter having been submitted,
the Court orders as follows:
This is a wrongful foreclosure action initiated by
plaintiff Vincent Tang (“Plaintiff’) against defendants
JPMorgan Chase Bank (“JPMorgan”), Quality Loan
Service Corporation (“QLS”), Deborah Brignac (“Brignac”), U.S. Bank, N.A. (“U.S. Bank”), Select Portfolio
Servicing (“SPS”), Orchid Terrace Inc. (“Orchid Terrace”), Monte Vista Oaks, Inc. (“MVO”), Monte Vista
Oaks DB Plan (“DB Plan”), and KIP Dream Homes
(“KIP”).
According to the operative second amended complaint (“SAC”), Plaintiff owns property located at 2739
Clover Meadow Court, San Jose, CA (“Subject Property”). (SAC, ¶ 2.) On June 27, 2005, Plaintiff obtained
a loan from Washington Mutual Bank (“WaMu”) in
the amount of $825,000.00 and secured the loan by a
deed of trust (“DOT”) on the Subject Property. (Id. at
¶ 42.) The DOT and promissory note (“Note”) named
WaMu as the beneficiary and California Reconveyance
Company (“CRC”) as the trustee. (Id. at ¶ 43.) On
October 2, 2008, JPMorgan purchased WaMu as a
result of a receivership ordered by the Federal Deposit
Insurance Corporation (“FDIC”). (Id. at ¶ 44.)
On March 1, 2010, CRC recorded a notice of
default on the Subject Property (“NOD”). (SAC, ¶ 45.)
That same day, an assignment of the DOT (“ADOT”)
to Bank of America (“BANA”), as successor by merger
to LaSalle Bank NA and as trustee to the WaMu
1 The hearing on the demurrer and motion to expunge filed by
Defendants Orchid Terrace, et al., have been vacated, based on
notice to the Court that the case as to those defendants has
settled.

App.46a
Mortgage Pass-Through Certificate Series 2005-AR19
(“WaMu AR19”), was recorded. (Id. at ¶ 47.) The ADOT
is void because its executor, Brignac, represented
that she signed it “under the authority of being a
Vice President of [JPMorgan],” she but never held
that position. (Id. at ¶ 50.) Instead, she was a foreclosure specialist and supervisor for CRC. (Ibid.) The
ADOT is additionally void because it purported to
transfer the DOT into WaMu AR19 on or about
February 26, 2010, almost five years after the pool
had closed. (Id. at ¶ 52.)
Thereafter, U.S. Bank, through SPS, substituted
ALAW as trustee (“SOT1”). (SAC, ¶ 56-57.) There is
no recorded document transferring interest to U.S.
Bank. (Ibid.) The SOT1 is void because neither U.S.
Bank, SPS, nor WaMu AR19 had a beneficial interest
in the DOT or Note at that time, and therefore had
no interest to assign. (Ibid.) Two years later, QLS was
substituted as trustee (“SOT2”). (Id. at ¶ 58.) The SOT2
is void because neither U.S. Bank, SPS, nor WaMu
AR19 had a beneficial interest in the DOT or Note at
that time. (Id. at ¶ 59.) QLS then recorded three notices
of trustee sale on March 24, 2016, June 14, 2016,
and November 1, 2016 (“Three NOTS”). (Id. at ¶ 60.)
QLS subsequently sold the Subject Property to
Orchid Terrace, MVO, DB Plan, and KIP (collectively
“Investors”) at a foreclosure sale. (SAC, ¶ 62.) Their
status as bona fide purchasers is “void and voidable
at the option of the Plaintiff” because they do not
have certificates of qualification as required for foreign
business entities and are not registered with the
California Secretary of State. (Id. at ¶ 63.) After the
sale, a trustee’s deed upon sale (“TDUS”) was recorded,

App.47a
which is also void because defendants did not have
the lawful authority to foreclose. (Id. at ¶¶ 64-65.)
Plaintiff asserts causes of action for: (1) declaratory
judgment; (2) “statutory violations;” (4) unlawful foreclosure; (5) slander of title; (6) cancellation of instruments; and (7) unfair business practices.
Presently before the Court are: (1) Brignac’s
demurrer to the SAC; and (2) Brignac’s joinder to
JPMorgan’s motion to strike portions of the pleading.
I.

Brignac’s Demurrer
A. Request for Judicial Notice

First, Brignac requests judicial notice of the Notice
of Ruling on Demurrer and Motion to Strike Portions
of Plaintiff’s First Amended Complaint and Ruling
Taking Pending Demurrers Off Calendar, filed on
August 1, 2017 by JPMorgan in this action. This court
record is a proper subject of judicial notice under
Evidence Code section 452, subdivision (d). In addition,
it is relevant to issues raised herein. (See People ex
rel. Lockyer v. Shamrock Foods Co., supra, 24 Cal.4th
at p. 422, fn. 2.)
Next, Brignac requests judicial notice of a federal
district court trial ruling. This request is misguided
because she fails to demonstrate how a court document
from an unrelated case is relevant to any matter
under review herein. (See People ex rel. Lockyer v.
Shamrock Foods Co., supra, 24 Cal.4th at p. 422, fn. 2.)
In light of the above, the request for judicial
notice is GRANTED IN PART AND DENIED IN
PART. The request is GRANTED as to the Notice of

App.48a
Ruling and DENIED as to the federal district court
trial ruling.
B. Merits of the Demurrer
Brignac demurs to the entire SAC on the ground
of failure to state sufficient facts to constitute a
cause of action, arguing Plaintiff lacks standing. She
also demurs to each individual cause of action on the
ground of failure to state sufficient facts to constitute
a cause of action based on a variety of other arguments.
As an initial matter, for the same reasons discussed above relative to Investors’ demurrer, the
first cause of action is additionally stricken from the
SAC as to Brignac.2 As such, the demurrer to the
first cause of action on the ground of failure to state
sufficient facts to constitute a cause of action is
MOOT.
As a preliminary matter, the Court previously
sustained JPMorgan’s demurrers to the complaint
and the first amended complaint. Those pleadings
asserted five causes of action for “statutory violations,”
unlawful foreclosure, slander of title, cancellation of
instruments, and unfair business practices. Although
the prior orders did not permit Plaintiff to amend the
pleading to include a new cause of action, he asserts
2 In opposition, Plaintiff notes the Court previously stated in its
ruling on JPMorgan’s demurrer to the SAC that the first cause
of action for declaratory relief could survive a demurrer. This is
inaccurate. The Court held that the standing arguments
advanced by JPMorgan did not address each part of the first
cause of action. The Court did not state the first cause of action
otherwise has merit. To the contrary, Brignac’s other arguments
directed to the first cause of action are well-taken. (See
Mendoza, supra, 6 Cal.App.5th at pp. 820-821.)

App.49a
a declaratory relief cause of action for the first time
in the SAC.
“Following an order sustaining a demurrer or a
motion for judgment on the pleadings with leave to
amend, the plaintiff may amend his or her complaint
only as authorized by the court’s order. The plaintiff
may not amend the complaint to add a new cause of
action without having obtained permission to do so,
unless the new cause of action is within the scope of
the order granting leave to amend.” (Harris v. Wachovia
Mortg., FSB (2010) 185 Cal.App.4th 1018. 1023, internal citations omitted.) A court may, in its discretion,
strike new causes of action when they are not drawn
in conformity with its prior order. (See Code Civ. Proc.,
§ 436, subd. (b); Ferraro v. Camarlinghi (2008) 161
Cal.App.4th 509, 528 [“[Section 436] is commonly
invoked to challenge pleadings filed in violation of a
deadline, court order, or requirement of prior leave of
court”].) As Plaintiff did not seek permission to include
the declaratory relief cause of action, it is hereby
stricken. It is therefore unnecessary to discuss the
merits of the demurrer relative to the first cause of
action.3 The demurrer to the first cause of action on
the grounds of failure to state sufficient facts to constitute a cause of action and uncertainty is thus MOOT.

3 Even if the Court were to address them, Brignac’s arguments
have merit. (See Mendoza v. JPMorgan Chase Bank, N.A. (2016)
6 Cal.App.5th 802, 820-821 (“Mendoza”) [declaratory relief
claim is inadequately stated when merely duplicative of other
causes of action and, in a foreclosure case, the property has
already been sold].)

App.50a
1. Failure to State Sufficient Facts
Brignac argues Plaintiff fails to state sufficient
facts as to the third, fifth, and sixth causes of action
because he lacks standing to sue. There are two
bases alleged by Plaintiff to assert standing to initiate
this action. First, the ADOT is void based on Brignac’s
lack of authority to execute it. Second, the ADOT is
void because the DOT was not timely assigned into
WaMu AR19.4 Brignac asserts Plaintiff does not have
standing under either theory.
“Standing is a threshold issue, because without
it no justiciable controversy exists. Standing goes to
the existence of a cause of action. Pursuant to Code
of Civil Procedure section 367, ‘[e]very action must be
prosecuted in the name of the real party in interest,
except as otherwise provided by statute.’” (Saterbak
v. JPMorgan Chase Bank N.A. (2016) 245 Cal.App.4th
808, 813 (“Saterbak”), internal citations and quotation
marks omitted.) A plaintiff who initiates a post-foreclosure action has standing to challenge the validity of
an assignment if it is void. (Yvanova v. New Century
Mortg. Corp. (2016) 62 Cal.4th 919, 943 (“Yvanova”).)
The difference between void and voidable is crucial for
the discussion of standing as “[a] void contract is
without legal effect” and may not be ratified by the
parties, while a voidable contract is still subject to
ratification by the parties. (Id. at pp. 929-930.) Thus,
4 Plaintiff also suggests that perhaps the DOT was never actually
placed in WaMu AR19 because such transfer was not listed on a
website. Based on the pleading, it does not appear that this
allegation was intended to form a separate and distinct basis for
Plaintiff’s claims. This interpretation is supported by Plaintiff’s
opposition, as he does not dispute Brignac’ characterization of
his claims as only focusing on the timeliness of the transfer.

App.51a
while a plaintiff has standing to challenge a void
assignment, he or she lacks standing to challenge one
that is merely voidable. (Saterbak, supra, 245 Cal.App.
4th at p. 815.) To plead an assignment is void, a
plaintiff may not simply allege as much as a conclusion;
rather, he or she must allege a factual basis supporting
the conclusion. (Gomes v. Countrywide Home Loans,
Inc. (2011) 192 Cal.App.4th 1149, 1156.)
First, Plaintiff alleges Brignac’s recording of the
ADOT was fraudulent because she executed it “under
the authority of being a Vice President of Defendant,”
however, she never held that position. (SAC, ¶ 50.)
Plaintiff pleads Brignac was actually a foreclosure
specialist and supervisor for the California Reconveyance Company. (Ibid.)
This allegation fails to confer standing on Plaintiff;
allegations that a written instrument is void because
the signatory was allegedly employed by another entity
are insufficient to invalidate the instrument. (See

Kalnoki v. First American Trustee Servicing Solutions,
LLC (2017) 8 Cal.App.5th 23, 46; see also Rahbarian v.
JP Morgan Chase (E.D. Cal., Nov. 10, 2014, No. 2:14-

CV-01488 JAM) 2014 WL 5823103, at *8 [“The mere
fact that Derborah [sic] Brignac was not an employee
of JPMorgan and Colleen Irby was not an employee
of CRC does not give rise to a reasonable inference
that they did not have the authority to sign documents
on behalf of those companies.”].) Being an employee
of one entity does not necessarily disqualify a signatory
from being authorized to sign on another entity’s
behalf. (Mendoza, supra, 6 Cal.App.5th at p. 819.) Moreover, contrary to Plaintiff’s arguments, the emphasis of
his allegations is on Brignac’s employment, not her
lack of authority to execute the ADOT. (See SAC, ¶ 50.)

App.52a
Plaintiff does not actually allege she was not authorized
to execute the ADOT.
The allegations are additionally insufficient to
confer standing because where a plaintiff alleges
that a document is void due to the signatory’s lack of
authority to execute the document, yet does not contest
the validity of the underlying debt, the plaintiff lacks
standing to contest the assignment. (Pratap v. Wells
Fargo Bank, NA. (N.D. Cal. 2014) 63 F.Supp.3d 1101,
1109.) Further, it is well-established that these allegations render an assignment only voidable, not void.
(Mendoza, supra, 6 Cal.App.5th at p. 819; Javaheri v.
JPMorgan Chase Bank, NA. (C.D. Cal., Aug. 13, 2012,
No. 2:10-CV-08185-ODW) 2012 WL 3426278, at *6.)
Because the ADOT would only be voidable, Plaintiff
lacks standing to challenge the foreclosure based on
Brignac’s execution of the document.5
Next, Plaintiff alleges the ADOT is void because
the DOT was transferred into WaMu AR19 on or
about February 26, 2010, almost five years after the
pool had closed. (SAC, ¶ 52.) Brignac also contends
Plaintiff lacks standing to challenge the transfer to
the pool because a defect in the securitization only
renders the assignment voidable and not void. This
argument is well-taken. Plaintiff does not address this
argument in opposition, tacitly conceding its merit. A
defect in the securitization process only renders the

5 Plaintiff’s argument that the ADOT was a forgery does not
support a contrary conclusion. An express allegation that the
document was forged does not alter the standing analysis. (See
Saterbak, supra, 245 Cal.App.4th at p. 814 [lack of standing
when plaintiff expressly alleged assignment was forged].)

App.53a
assignment voidable, not void.6 (See Saterbak, supra,
245 Cal.App.4th at p. 815.) Because a plaintiff does
not have standing to challenge an assignment that is
merely voidable, Plaintiff lacks standing here to the
extent the action is predicated on the transfer of the
DOT into the pool.
Plaintiff does not advance any arguments supporting the conclusion that he has standing to sue.
Plaintiff asserts he has standing pursuant to paragraph
22 of the DOT. Paragraph 22 of the DOT states Plaintiff shall have the right to bring a court action to
assert the non-existence of a default or any other
defense to the sale. Plaintiff insists the DOT is essentially a contract and should be governed by contract
law and not foreclosure statutes. Paragraph 22 does
not purport to grant Plaintiff standing in any context to
initiate an action; it states that prior to “acceleration,”
the lender must provide Plaintiff with written notice
of certain information, including that he has “the right
to bring a court action to assert the non-existence of
a default or any other defense . . . to acceleration and
sale.” Insuring Plaintiff is informed of his ability to
initiate an action does not confer standing on him.
(See Saterbak, supra, 245 Cal.App.4th at p. 816 [stating
similar “provisions do not change [a plaintiff’s] standing
obligations under California law”]; see also Yhudai v.
Impac Funding Corporation (2016) 1 Cal.App.5th 1252,
6 Plaintiff’s only reference to securitization is that the cases cited
rely on New York law governing the securitization process. However, the outcome is the same regardless whether the Court applies
New York or California law. (See Gutierrez v. Bank of America,
N.A. (E.D. Cal., Apr. 8, 2014, No. 2:13-CV-01695-TLN-AC) 2014 WL
1379883, at *6, fn. 2 [a plaintiff may not challenge securitization
process under California law].)

App.54a
1260.) As such, paragraph 22 of the DOT does not
confer standing on Plaintiff.
In sum, Plaintiff lacks standing and the demurrer
is therefore sustainable to the second, third, fourth,
fifth, and sixth causes of action. Plaintiff’s lack of
standing is a non-curable defect. Plaintiff has twice
amended the pleading and failed to allege new facts
curing this deficiency.7 In addition, he fails to provide
any facts suggesting he would be able to do so. As
noted above, the newly claimed theory of forgery does
not cure the standing problems. (See Saterbak, supra,
245 Cal.App.4th at p. 814 [lack of standing when
plaintiff expressly alleged assignment was forged].)
It also does not appear that any argument predicated
on the “staleness” of the NOD would cure such defect
as there are no statutory provisions requiring a foreclosing entity to re-issue a notice of default after a
specified time. As such, leave to amend is not
warranted. (See Goodman v. Kennedy (1976) 18 Cal.3d
335, 349 [a “[p]laintiff must show in what manner he
[or she] can amend his [or her] complaint and how
that amendment will change the legal effect of the
pleading”].) Accordingly, Brignac’ demurrer to the first
through sixth causes of action on the ground of failure
to state sufficient facts to constitute a cause of action
is SUSTAINED WITHOUT LEAVE TO AMEND.
II.

Brignac’s Motion to Strike

As the demurrer to the entirety of the SAC was
sustained, the motion to strike is MOOT.

7 In light of this conclusion, it is unnecessary to evaluate the
remainder of Brignac’ arguments.

App.55a
III. Professionalism
In his opposition to Brignac’s demurrer, Plaintiff’s
counsel compared Brignac to a Nazi soldier who was
simply following orders. These statements are outrageous and deeply offensive.
The Judges of the Santa Clara County Superior
Court have adopted by standing order the Santa Clara
County Bar Association’s Code of Professionalism and
expect attorneys to comport themselves in accordance
with the guidelines set forth therein. Section 7 of the
Code of Professionalism provides that written materials
submitted to the court should not unfairly attack the
opposing party, such as degrading his or her ethics,
morals, or personal behavior, unless such issues are
specifically at issue in the proceeding. Plaintiff’s counsel
Thomas Spielbauer certainly violated this rule by
comparing Brignac’s behavior of executing foreclosurerelated documents to the acts of Nazis. Plaintiff’s
counsel is admonished to comply with the Code of
Professionalism in the future.
Defendant shall submit a proposed judgment
either approved as to form or with proof of compliance
with Rules of Court, Rule 3.1312.
/s/ Hon. Mary E. Arand
Judge of the Superior Court
Date: February 7, 2018

App.56a
ORDER OF THE SUPERIOR COURT OF
CALIFORNIA, COUNTY OF SANTA CLARA RE:
JPMORGAN BANK DEMURRER AND
MOTION TO STRIKE
(FEBRUARY 7, 2018)
SUPERIOR COURT OF CALIFORNIA
COUNTY OF SANTA CLARA
________________________
VINCENT TANG,

Plaintiff,
v.
JPMORGAN CHASE BANK; ET AL.,

Defendants.
________________________
Case No.: 17-CV-307324
Before: Mary E. ARAND, Judge.
ORDER RE: DEMURRER
AND MOTION TO STRIKE
DECISION ON SUBMITTED MATTER
The demurrer to the second amended complaint
and motion to strike portions of the pleading filed by
defendant JPMorgan Chase Bank came on for hearing
before the Honorable Mary E. Arand on January 23,
2018, at 9:00 a.m. in Department 9. The matter having
been submitted, the Court orders as follows:

App.57a
This is a wrongful foreclosure action initiated by
plaintiff Vincent Tang (“Plaintiff’) against defendants
JPMorgan Chase Bank (“JPMorgan”), Quality Loan
Service Corporation (“QLS”), Deborah Brignac (“Brignac”), U.S. Bank, N.A. (“U.S. Bank”), Select Portfolio
Servicing (“SPS”), Orchid Terrace Inc., Monte Vista
Oaks, Inc., Monte Vista Oaks DB Plan, and KIP Dream
Homes.
According to the operative second amended
complaint (“SAC”), Plaintiff owns property located at
2739 Clover Meadow Court, San Jose, CA (“Subject
Property”). (SAC, ¶ 2.) On June 27, 2005, Plaintiff
obtained a loan from Washington Mutual Bank
(“WaMu”) in the amount of $825,000.00 and secured
the loan by a deed of trust (“DOT”) on the Subject
Property. (Id. at ¶ 42.) The DOT and promissory note
(“Note”) named WaMu as the beneficiary and California
Reconveyance Company (“CRC”) as the trustee. (Id. at
¶ 43.) On October 2, 2008, JPMorgan purchased WaMu
as a result of a receivership ordered by the Federal
Deposit Insurance Corporation (“FDIC”). (Id. at ¶ 44.)
On March 1, 2010, CRC recorded a notice of
default on the Subject Property (“NOD”). (SAC, ¶ 45.)
That same day, an assignment of the DOT (“ADOT”)
to Bank of America (“BANA”), as successor by merger
to LaSalle Bank NA and as trustee to the WaMu
Mortgage Pass-Through Certificate Series 2005-AR19
(“WaMu AR19”), was recorded. (Id. at ¶ 47.) The ADOT
is void because its executor, Brignac, represented she
signed it “under the authority of being a Vice President of [JPMorgan],” she but never held that position.
(Id. at ¶ 50.) Instead, she was a foreclosure specialist
and supervisor for CRC. (Ibid.) The ADOT is additionally void because it purported to transfer the DOT into

App.58a
WaMu AR19 on or about February 26, 2010, almost
five years after the pool had closed. (Id. at ¶ 52.)
Thereafter, U.S. Bank, through SPS, substituted
ALAW as trustee (“SOT1”). (SAC, ¶¶ 56-57.) There is
no recorded document transferring interest to U.S.
Bank. (Ibid.) The SOT1 is void because neither U.S.
Bank, SPS, nor WaMu AR19 had a beneficial interest
in the DOT or Note at that time, and therefore had
no interest to assign. (Ibid.) Two years later, QLS
was substituted as trustee (“SOT2”). (Id. at ¶ 58.) The
SOT2 is void because neither U.S. Bank, SPS, nor
WaMu AR19 had a beneficial interest in the DOT or
Note at that time. (Id. at ¶ 59.) QLS then recorded three
notices of trustee sale on March 24, 2016, June 14,
2016, and November 1, 2016 (“Three NOTS”). (Id. at
¶ 60.)
QLS subsequently sold the Subject Property to
Orchid Terrace, Inc., Monte Vista Oaks Inc., Monte
Visa Oaks DB Plan, and KIP Dream Homes at a foreclosure auction. (SAC, ¶ 62.) Their status as bona
fide purchasers is “void and voidable at the option of
the Plaintiff’ because they do not have certificates of
qualification as required for foreign business entities
and are not registered with the California Secretary
of State. (Id. at ¶63.) After the sale, a trustee’s deed
upon sale (“TDUS”) was recorded, which is also void
because “defendants” did not have the lawful authority
to foreclose. (Id. at ¶¶ 64-65.)
Plaintiff asserts causes of action for: (1) declaratory
judgment; (2) “statutory violations;” (4) unlawful foreclosure; (5) slander of title; (6) cancellation of instruments; and (7) unfair business practices.

App.59a
JPMorgan (“Defendant”) presently demurs to the
SAC on the ground of failure to state sufficient facts
to constitute a cause of action and moves to strike
portions of the pleading. Plaintiff opposes the demurrer
and motion to strike.1
I.

Request for Judicial Notice

In support of its demurrer and motion to strike,
Defendant first requests judicial notice of nine documents recorded in connection with the Subject Property.
These documents may be judicially noticed pursuant
to Evidence Code section 452, subdivision (h), which
allows a court to take judicial notice of facts and
propositions that are not reasonably subject to dispute
and are capable of immediate and accurate determination by resort to sources of reasonably indisputable accuracy. (See Fontenot v. Wells Fargo Bank;
NA. (2011) 198 Cal.App.4th 256, 264-265, disapproved
of on other grounds in Yvanova v. New Century Mortg.
Corp. (2016) 62 Cal.4th 919.)
In opposition, Plaintiff states that while these
documents are attached to the SAC, their veracity is
in dispute and he does not agree to their authenticity.
1 The Court observes Plaintiff’s opposition was untimely filed.
Code of Civil Procedure section 1005, subdivision (b) provides a
party must file an opposition nine court days prior to the hearing.
Here, the hearing date is set for January 23, 2018, thus the
opposition should have been filed and served nine court days
ahead of that date on January 9, 2018. However, Plaintiff only
filed his opposition on January 11, 2018. Defendant does not
appear to be prejudiced by the late filing. because it was able to
timely file a reply brief. Further, it does not argue the opposition
should be disregarded on the basis it was untimely filed.
Plaintiff is admonished to timely file his papers in the future.

App.60a
Even so, he does not actually assert they are forgeries;
rather, as discussed in more detail relative to the
merits of the demurrer, he argues they are void
because a signatory lacked authority to sign the ADOT.
Because the authenticity of the documents themselves
are not actually in dispute, they may be judicially
noticed. (See Fontenot v. Wells Fargo Bank, NA.,
supra, 198 Cal.App.4th at p. 265 [courts may judicially
notice documents if the authenticity is not disputed].)
Plaintiff additionally asserts that if the Court judicially
notices these recorded documents, it cannot accept
the truth of anything stated therein. “Although the
court recognized that it would have been improper to
take judicial notice of the truth of statements of fact
recited within the [recorded] documents, the trial
court was permitted to take judicial notice of the
legal effect of the documents’ language when that effect
was clear,” such as “the date of the notice’s recording,
and the amount stated as owing in the notice.” (Ibid.,
internal citation omitted.) Thus, while the Court will
not accept the truth of the matters stated in the documents, it will take judicial notice of their legal effect.
In addition, the documents are relevant to the underlying issues to be resolved in the demurrer. (See
People ex rel. Lockyer v. Shamrock Foods Co. (2000)
24 Cal.4th 415, 422, fn. 2 [any matter to be judicially
noticed must be relevant to a material issue].) Consequently, the recorded documents are proper subjects of judicial notice.
Next, Defendant requests judicial notice of the
Purchase and Assumption Agreement between the
FDIC and itself. While that document is a proper subject of judicial notice (see Scott v. JPMorgan Chase
Bank, NA (2013) 214 Cal.App.4th 743, 753), it is not

App.61a
relevant to any material issue raised in the demurrer.
Defendant does not actually rely on that document to
support any substantive argument; instead, it mentions
it as part of the background of how it came to have
an interest in the Subject Property. Accordingly, the
agreement is not a proper subject of judicial notice.
(See People ex rel. Lockyer v. Shamrock Foods Co.,
supra, 24 Cal.4th at p. 422, fn. 2.)
Last, Defendant seeks judicial notice of an excerpt
of WaMu AR19’s pooling and servicing agreement
pursuant to Evidence Code section 452, subdivision (h),
which, as stated above, permits a court to judicially
notice of facts and propositions that are not reasonably
subject to dispute and are capable of immediate and
accurate determination by resort to sources of reasonably indisputable accuracy. In opposition, Plaintiff
advances three arguments as to why this document
should not be subject to judicial notice.
Plaintiff first simply insists the agreement is not
a proper subject of judicial notice, without elaborating
any further on his argument. While, in general, it is
improper to judicially notice the existence of a contract
between private parties (Gould v. Maryland Sound
Industries, Inc. (1995) 31 Cal.App.4th 1137, 1145),
there are several exceptions to this rule. As applicable
here, a court may judicially notice an agreement if it
is referred to in the pleading and the parties do not
dispute the existence of the agreement (see Ascherman
v. General Reinsurance Corp. (1986) 183 Cal.App.3d
307, 310-311; see also Ingram v. Flippo (1999) 74
Cal.App.4th 1280, 1285, fn. 3; Trinity Park, L.P. v.
City of Sunnyvale (2011) 193 Cal.App.4th 1014, 10261027, disapproved of on other grounds by Sterling
Park, L.P. v. City of Palo Alto (2013) 57 Cal.4th 1193).

App.62a
Here, neither party disputes the existence of the
agreement and Plaintiff references it in the pleading;
therefore, it may be judicially noticed. (See SAC, ¶ 54.)
Second, Plaintiff argues the Court cannot consider
the statements set forth in the document for their
truth. While that is true, it does not prevent a court
from judicially noticing the existence of a document.
(See Trinity Park L.P. v. City of Sunnyvale, supra,
193 Cal.App.4th at p. 1027.) Last, Plaintiff contends
the document is not relevant because Defendant fails
to discuss it anywhere in its supporting papers. This is
simply incorrect. (See Mem. Ps. & As., p. 5:1-4 [referring to the agreement].) The Court otherwise finds the
document is relevant to a material issue discussed
herein. (See People ex rel. Lockyer v. Shamrock Foods
Co., supra, 24 Cal.4th at p. 422, fn. 2.) Accordingly, it
is a proper subject for judicial notice.
Finally, Defendant requests judicial notice of this
Court’s ruling as to its previous demurrer and motion
to strike directed to the first amended complaint
(“FAC”). This document is subject to judicial notice
pursuant to Evidence Code section 452, subdivision
(d), which provides court records are proper subjects
of judicial notice. In addition, it is relevant to an issue
raised herein. (See People ex rel. Lockyer v. Shamrock
Foods Co., supra, 24 Cal.4th at p. 422, fn. 2.)
Accordingly, the request for judicial notice is
GRANTED IN PART and DENIED IN PART. The
request is DENIED as to the Purchase and Assumption
Agreement, and is otherwise GRANTED.
II.

Demurrer

Defendant advances arguments applicable to all
causes of action in addition to arguments applicable to

App.63a
individual causes of action. The Court will first address
the arguments applicable to all causes of action.
A. Arguments Applicable to All Causes of Action
1. Standing
Defendant contends there are three allegations
forming the basis for Plaintiff’s standing to initiate
this action. First, the ADOT is void based on Brignac’s
lack of authority to execute it. Second, the ADOT is
void because the DOT was not timely assigned into
WaMu AR19.2 Third, paragraph 22 of the DOT confers standing on him. Defendant contends Plaintiff does
not have standing under any of the three theories.
For context, as stated above, Defendant previously
demurred to the FAC arguing, among other things,
Plaintiff lacked standing to sue. In the FAC, Plaintiff’s
claims were similarly predicated on Brignac’s purported
lack of authority, the untimely assignment into WaMu
AR19, and the language in paragraph 22 of the DOT.
The Court sustained the demurrer to each cause of
action, holding Plaintiff lacked standing based on the
above three allegations. Defendant contends Plaintiff
has alleged no new facts suggesting he now has
standing to pursue his claims.
“Standing is a threshold issue, because without
it no justiciable controversy exists. Standing goes to
2 Plaintiff also suggests that perhaps the DOT was never actually
placed in WaMu AR19 because such transfer was not listed on a
website. Based on the pleading, it does not appear that this
allegation was intended to form a separate and distinct basis for
Plaintiff’s claims. This interpretation is supported by Plaintiff’s
opposition, as he does not dispute Defendant’s characterization
of his claims as only focusing on the timeliness of the transfer.

App.64a
the existence of a cause of action, Pursuant to Code
of Civil Procedure section 367, [e]very action must be
prosecuted in the name of the real party in interest,
except as otherwise provided by statute.’” (Saterbak
v. JPMorgan Chase Bank, NA. (2016) 245 Cal.App.4th
808, 813 (“Saterbak”), internal citations and quotation
marks omitted.) A plaintiff who initiates a post-foreclosure action has standing to challenge the validity of
an assignment if it is void. (Yvanova v. New Century
Mortg. Corp. (2016) 62 Cal.4th 919, 943 (“Yvanova”).)
The difference between void and voidable is crucial for
the discussion of standing as “[a] void contract is
without legal effect” and may not be ratified by the
parties, while a voidable contract is still subject to
ratification by the parties. (Id. at pp. 929-930.) Thus,
while a plaintiff has standing to challenge a void assignment, he or she lacks standing to challenge one that
is merely voidable. (Saterbak, supra, 245 Cal.App.4th
at p. 815.) To plead an assignment is void, a plaintiff
may not simply allege as much as a conclusion; rather,
he or she must allege a factual basis supporting the
conclusion. (Gomes v. Countrywide Home Loans, Inc.
(2011) 192 Cal.App.4th 1149, 1156.)
First, Plaintiff alleges Brignac’s recording of the
ADOT was fraudulent because she executed it “under
the authority of being a Vice President of Defendant,”
however, she never held that position. (SAC, ¶ 50.)
Plaintiff pleads Brignac was actually a foreclosure
specialist and supervisor for the California Reconveyance Company. (Ibid.)
Defendant characterizes this allegation as one of
“robo-signing.” Robo-signing is the failure to conduct
a review of the evidence substantiating a borrower’s
default prior to recording or filing certain documents,

App.65a
including an assignment of a deed of trust. (Michael
J. Weber Living Trust v. Wells Fargo Bank, NA. (N.D.
Cal., Mar. 25, 2013, No. 13-CV-00542-JST) 2013 WL
1196959, at *4.) Similar to his opposition to the prior
demurrer, Plaintiff disputes this characterization
and maintains the allegation is not one of “robosigning” but one of a lack of authority to execute the
documents in the first instance. Plaintiff insists that
instead of alleging Brignac is a robo-signer, he pleads
she never worked for Defendant.
In the prior ruling, the Court held this allegation
failed to confer standing on Plaintiff. As discussed by
the Court, robo-signing claims are often predicated
on a plaintiff alleging an employee of an entity without the proper authority executed an assignment. (See
Pratap v. Wells Fargo Bank N.A. (N.D. Cal. 2014) 63
F.Supp.3d 1101, 1109; see also Baldoza v. Bank of
America, NA. (N.D. Cal., Mar. 12, 2013, No. C-12-05966
JCS) 2013 WL 978268, at *13 [characterizing a claim
that an employee did not work for MERS but executed
an assignment on its behalf as “robo-signing”].) Regardless of whether Plaintiff’s allegation amounts to robosigning, allegations that a written instrument is void
because the signatory was allegedly employed by another entity are insufficient to invalidate the instrument. (See Kalnoki v. First American Trustee Servicing
Solutions, LLC (2017) 8 Cal.App.5th 23, 46; see also
Rahbarian v. JP Morgan Chase (E.D. Cal., Nov. 10,
2014, No. 2:14-CV-01488 JAM) 2014 WL 5823103, at *8
[“The mere fact that Derborah [sic] Brignac was not
an employee of JPMorgan and Colleen Irby was not
an employee of CRC does not give rise to a reasonable
inference that they did not have the authority to sign
documents on behalf of those companies.”].) Being an

App.66a
employee of one entity does not necessarily disqualify
a signatory from being authorized on behalf of another
entity to sign on its behalf. (See ibid.) Moreover, contrary to Plaintiff’s arguments, the emphasis of Plaintiff’s
allegations is on Brignac’s employment, not her lack
of authority to execute the ADOT. (See SAC, ¶ 50.)
Plaintiff does not actually allege Defendant did not
authorize her to execute the ADOT. Plaintiff alleged
no new facts that would support a different conclusion
or materially change the substance of his claims.
The allegations are additionally insufficient to
confer standing because “where a plaintiff alleges that
a document is void due to robo-signing, yet does not
contest the validity of the underlying debt, and is not
a party to the assignment, the plaintiff does not have
standing to contest the alleged fraudulent transfer.”
(Pratap v. Wells Fargo Bank, NA. (N.D. Cal. 2014) 63
F.Supp.3d 1101, 1109.) Such is the case here. Further,
it is well-established that allegations of robo-signing
render an assignment only voidable, not void. (Javaheri
v. JPMorgan Chase Bank, NA. (C.D. Cal., Aug. 13,
2012, No. 2:10-CV-08185-ODW) 2012 WL 3426278,
at *6.) Because the ADOT would only be voidable,
Plaintiff lacks standing to challenge Defendant’s
authority based on Brignac’s execution of the document.
At the hearing, Plaintiff attempted to file with the
Court a new pleading, that apparently would describe
how the complaint could be amended. The Court
declined to allow Plaintiff to file this document, as
other counsel appeared by phone, this document had
not been served, and sur-replies are not authorized
under the Code. However, the Court allowed counsel
to argue in what way the complaint could be amended
to state a claim, and counsel indicated that he intended

App.67a
to add new allegations that Brignac’s signature on
the ADOT was a forgery as defined in the Penal Code.
Despite the Court’s denial of counsel’s request to file
this document, after the hearing and after the matter
had been taken under submission, Plaintiff filed a
document entitled “Statement of How Plaintiff Will
Amend the Pleading,” which does nothing more than
reiterate the arguments made at the hearing.3 Whether
Plaintiff argues that the execution of the ADOT was
robo-signing or a forgery does not support a contrary
conclusion. Even an express allegation that the document was forged does not alter the standing analysis.
(See Saterbak supra, 245 Cal.App.4th at p. 814 [lack
of standing when plaintiff expressly alleged assignment
was forged].) Such an allegation is still, at best,
voidable and not void.
Next, Plaintiff alleges the ADOT is void because
the DOT was transferred into WaMu AR19 on or
about February 26, 2010, almost five years after the
pool had closed. (SAC, ¶ 52.) Defendant also contends
Plaintiff lacks standing to challenge the transfer to
the pool because a defect in the securitization only
renders the assignment voidable and not void. This
argument is well-taken. Plaintiff does not address
this argument in opposition, tacitly conceding its
merit. As explained in detail relative to the court’s
prior ruling, a defect in the securitization process
only renders the assignment voidable, not void. (See
3 Plaintiff claims he had to file this document after the hearing
because “court reporters are no longer provided for motions
brought before the Court.” However, as counsel is aware, the
Court allows the parties to stipulate to bring private court
reporters for law and motion matters, and Plaintiff’s counsel
chose not to bring his own court reporter.

App.68a

Saterbak, supra, 245 Cal.App.4th at p. 815.) Because
a plaintiff does not have standing to challenge an
assignment that is merely voidable, Plaintiff lacks
standing here to the extent the action is predicated
on the transfer of the DOT into the pool.
Last, Plaintiff alleges paragraph 22 of the DOT
grants him the right to challenge the ADOT. Paragraph
22 of the DOT states Plaintiff shall have the right to
bring a court action to assert the non-existence of a
default or any other defense to the sale. Plaintiff insists
the DOT is essentially a contract and should be
governed by contract law and not foreclosure statutes.
The Court already thoroughly addressed these allegations in its prior ruling, finding Plaintiff did not have
standing on this basis. As explained in the prior
ruling, Paragraph 22 does not purport to grant Plaintiff
standing in any context to initiate an action; it states
that prior to “acceleration,” the lender must provide
Plaintiff with written notice of certain information,
including that he has “the right to bring a court
action to assert the non-existence of a default or any
other defense . . . to acceleration and sale.” Insuring
Plaintiff is informed of his ability to initiate an action
does not confer standing on him. (See Saterbak, supra,
245 Cal.App.4th at p. 816 [stating similar “provisions
do not change [a plaintiff’s] standing obligations under
California law”]; see also Yhudai v. Impac Funding
Corporation (2016) 1 Cal.App.5th 1252, 1260.) As such,
paragraph 22 of the DOT does not confer standing on
Plaintiff.
In sum, Plaintiff lacks standing to assert each
cause of action to the extent they are predicated on
Brignac’s lack of authority, the assignment of the DOT

App.69a
into the pool, and the language of paragraph 22 of
the DOT.
With that said, Plaintiff’s lack of standing does
not entirely dispose of every cause of action. The first
cause of action is not solely predicated on these three
allegations; it is also based on the “staleness” of the
NOD, specifically whether it could properly be the
basis for issuing the Three NOTS five years after its
execution.4 (See SAC, ¶ 80.) The staleness of the NOD
is a distinct issue from whether the DOT was timely
transferred into WaMu AR19 and Brignac lacked
authority to execute the ADOT. Defendant completely
fails to address the staleness of the NOD in its discussion regarding standing. As such, the demurrer is
not sustainable as to the first cause of action solely
on the basis that Plaintiff lacks standing. On the other
hand, the demurrer is sustainable as to the remaining
causes of action on this basis.5
2. Consent Judgment
Plaintiff alleges the major servicers of mortgages
in California, such as BANA and JPMorgan, agreed
to the National Mortgage Settlement in April 2012.
(SAC, ¶ 67.) Plaintiff pleads that the settlement entered
4 While Plaintiff discusses the issue of staleness, he only does so
generally and does not address it relative to a specific cause of
action. It appears from the pleading that it only explicitly relates
to the first cause of action.
5 In addition to presenting the issue of standing as a global
argument, Defendant re-asserts the standing argument when
individually addressing each cause of action. It is unnecessary
for the Court to address the argument in connection with each
cause of action given the ruling here.

App.70a
into by these entities imposed on them the obligation
to prove they had authority to foreclose, and Defendant
failed to comply with this requirement. (Ibid.).
Defendant refers to this requirement as the “consent judgment” and asserts Plaintiff has no standing to
enforce it. Defendant concludes the claims premised on
such allegations therefore fail. Defendant’s argument
is problematic because, as argued by Plaintiff, none
of the claims are premised on these allegations. This
allegation appears to be background information
providing an introduction into Plaintiffs allegations
relating to the Homeowner Bill of Rights. The demurrer
is therefore not sustainable on this basis.
3. Proper Party
Defendant asserts it is not the “proper party” to
Plaintiffs claims to the extent they relate to the SOT1,
SOT2, Three NOTS, and TDUS. Defendant contends
the exhibits to the SAC reveal it was not the loan
servicer when they were recorded and, as a result, it
cannot be liable for any claim.
Defendant previously advanced this argument
in support of its demurrer to the FAC and the Court
then found it meritless. Here, Defendant reasserts
the argument without change. For the same reasons
previously discussed, the fact Defendant did not record
the subject documents does not shield it from all
liability. As previously stated, Defendant’s liability is
predicated on the existence of a conspiracy and joint
venture. (See SAC, ¶¶ 19-21.) Because Plaintiff pleads
Defendant was a member of the conspiracy, it may
be held liable for the wrongful acts of the other
defendants. (See Applied Equipment Corp. v. Litton
Saudi Arabia Ltd (1994) 7 Cal.4th 503, 510 [stating

App.71a
conspiracy imposes liability on parties who share in
the design of a wrongful plan].) Notably, Defendant
does not challenge the sufficiency of the conspiracy
and joint venture allegations. Consequently, there is
nothing apparently shielding Defendant from liability
as to defects arising from the SOT1, SOT2, Three
NOTS, and TDUS.
B. Arguments Applicable to Individual Causes
of Action
1. First Cause of Action —
Declaratory Judgment
The first cause of action alleges an actual controversy has arisen between Plaintiff and Defendant
concerning their respective rights and duties. (SAC,
¶ 76.) Plaintiff seeks a judicial determination that:
(1) the DOT was illegally moved into WaMu AR19; (2)
WaMu AR19 was closed at the time of the transfer,
thereby voiding it; (3) WaMu AR19 did not, and does
not, have any beneficial interest in the DOT; (4) the
ADOT, SOT1, SOT2, Three NOTS, and TDUS are
void and invalid for reasons of fraud, lack of authority,
and forgery by Brignac; (5) the NOD is invalid as it is
stale; and (6) Defendant, BANA, SPS, QLS, and
Brignac violated and conspired to violate California
Penal Code sections 115 and 115.5. (Id. at ¶¶ 77-84.)
Defendant contends Plaintiff fails to state sufficient
facts to constitute a cause of action because this
cause of action was not asserted in the FAC and the
Court’s prior order sustaining the demurrer to the
FAC did not provide leave to add another cause of
action.

App.72a
Defendant’s argument is well-taken. “Following an
order sustaining a demurrer or a motion for judgment
on the pleadings with leave to amend, the plaintiff
may amend his or her complaint only as authorized
by the court’s order. The plaintiff may not amend the
complaint to add a new cause of action without having
obtained permission to do so, unless the new cause of
action is within the scope of the order granting leave
to amend.” (Harris v. Wachovia Mortg., FSB (2010)
185 Cal.App.4th 1018, 1023, internal citations omitted
[affirming the sustaining of a demurrer on the basis the
cause of action was improperly added to a complaint];

People By and Through Dept. of Public Works v.
Clausen (1967) 248 Cal.App.2d 770, 785.) Here, this

cause of action was not asserted in the FAC; that
pleading contained four causes of action for “statutory
violations,” unlawful foreclosure, slander of title,
cancellation of instruments, and unfair business
practices. In addition, the prior order did not permit
Plaintiff to amend the pleading to include a new cause
of action.
Plaintiff’s argument in opposition does not support
a contrary conclusion. Plaintiff insists that “[d]eclaratory Judgment is in reality pled for each of the other
causes of action” and “[t]his cause of action is very
much involved with the statutory violations, unlawful
foreclosure, slander of title, cancellation of recorded
instruments, as well as the unfair business practices.”
(Opp., p.14:26-28.) Though not clearly stated, it appears
Plaintiff intended to argue that this claim does not
advance any new legal theory, and thus is permissible.
Plaintiff fails to substantiate his contention that such
an amendment is permissible as he cites no legal
authority supporting that position. ( See People v.

App.73a

Dougherty (1982) 138 Cal.App.3d 278, 282 [a point
made without argument or legal authority does not
require discussion].)
Accordingly, the demurrer to the first cause of
action is sustained on this basis. In light of this conclusion, it is unnecessary for the Court to address
Defendant’s other arguments in support of its demurrer
to this cause of action.
2. Second Cause of Action —
Statutory Violations
Plaintiff pleads Defendant violated Civil Code
sections 2924.17, subdivision (b) (“Section 2924.17(b)”)
and 2924f, subdivision (b)(1) (“Section 2924f(b)(1)”),
which are provisions of the Homeowner Bill of Rights
(“HBOR”), as well as Penal Code sections 115, subdivision (a) (“Section 115(a)”) and 115.5, subdivision (a)
(“Section 115.5(a)”). The violations of these statutes are
predicated on defects in the NOD, ADOT, SOT1,
SOT2, Three NOTS, and TDUS.
First, Defendant asserts another argument that
this Court has already disposed of in its prior demurrer.
Specifically, Defendant again insists Plaintiff does
not state a violation of the HBOR with respect to the
recordation of the NOD in 2010 because the statute
is not retroactive. As explained more thoroughly in
the prior ruling, the demurrer is not sustainable on
this basis because this cause of action is predicated on
the SOT1, SOT2, Three NOTS, and TDUS in addition
to the NOD. Thus, Plaintiff’s failure to plead a violation
of the HBOR based on the NOD does not dispose of
the entire claim. Consequently, it is not susceptible
to demurrer on the basis the HBOR does not apply

App.74a
retroactively. (See PH II, Inc. v. Superior Court (1995)
33 Cal.App.4th 1680, 1682.)
Second, Defendant maintains Plaintiff fails to
allege any conduct violative of Section 2924.17, which
“place[s] a burden on the foreclosing party to file a
declaration with the notice of default, and provide[s]
requirements for the lender’s diligence prior to filing
that declaration.” (Lucioni v. Bank of America, NA.
(2016) 3 Cal.App.5th 150, 163.) Subdivision (b) of
that statute requires that, prior to recording or filing
any foreclosure-related documents, “a mortgage servicer
shall ensure that it has reviewed competent and
reliable evidence to substantiate the borrower’s default
and the right to foreclose, including the borrower’s
loan status and loan information.” (Civ. Code, § 2924.
17, subd. (b).) Defendant’s argument is not well-taken.
Plaintiff alleges Defendant recorded the property
documents without reviewing competent and reliable
evidence (SAC, ¶ 88), which is behavior Section 2924.17
prohibits.
Apparently recognizing the flaw in its argument,
Defendant next asserts any allegation that it failed
to comply with Section 2924.17 is inadequate because
Plaintiff’s allegations are conclusory and nonspecific.
This argument has merit. Statutory claims must be
pleaded with particularity. (Covenant Care, Inc. v.
Superior Court (2004) 32 Cal.4th 771, 783.) This
requires plaintiffs to “set forth facts in his [or her]
complaint sufficiently detailed and specific to support
an inference that each of the statutory elements of
liability is satisfied” because “[g]eneral allegations
are regarded as inadequate.” (Mittenhuber v. City of
Redondo Beach (1983) 142 Cal.App.3d 1, 5.) Plaintiff
fails to meet this standard. Plaintiff only pleads the

App.75a
legal conclusion that Defendant failed to review the
proper material. (SAC, ¶ 88.) There are no detailed
allegations relating to Defendant’s review of material
reflecting Plaintiffs loan status and how that review
was inadequate.
In addition, Defendant persuasively argues Plaintiff fails to allege any material violations of Section
2924.17. Civil Code section 2924.12 provides that a
plaintiff may only bring an action based on Section
2924.17 if the violation is material. “Courts have
interpreted the term ‘material’ to refer to whether the
alleged violation affected a plaintiff’s loan obligations[.]”
(Cornejo v. Ocwen Loan Servicing, LLC (E.D. Cal.
2015) 151 F. Supp.3d 1102, 1113.) Here, Plaintiff does
not allege whether Defendant’s purported violation of
Section 2924.17 affected his loan obligations. As a
result, he fails to plead that any violation of Section
2924.17 was material.
Next, Section 2924f(b)(1) provides that prior to
the sale of property pursuant to the power of sale
contained in any deed of trust or mortgage, “notice of
the sale thereof shall be given by posting a written
notice of the time of sale and of the street address
and the specific place at the street address where the
sale will be held, and describing the property to be
sold, at least 20 days before the date of sale in one
public place in the city where the property is to be
sold, if the property is to be sold in a city, or, if not,
then in one public place in the county seat of the
county where the property is to be sold, and publishing
a copy once a week for three consecutive calendar
weeks.” Defendant aptly argues Plaintiff fails to allege
any violation of this statute. Defendant allegedly
violated this statute by listing QLS as the foreclosing

App.76a
trustee, even though it legally was not and could not
have been the trustee. (SAC, ¶ 90.) However, Section
2924f(b)(1) does not relate to whether an entity has
authority to foreclose on the property; rather it prescribes the time and place for providing notice of a
sale. As such, even if QLS had no authority to foreclose as trustee, that would not result in Defendant
violating this statute. Accordingly, Plaintiff fails to
allege facts suggesting a violation of Section 2924f
(b)(1).
Turning to the alleged violations of the Penal Code,
Defendant asserts Plaintiff does not state a claim for
a violation of Sections 115(a) and 115.5(a) because he
has no standing to enforce criminal statutes. Defendant
already successfully challenged this cause of action
in its previous demurrer on the same basis. Plaintiff
appears to have disregarded the Court’s prior ruling
as this portion of the pleading remains unchanged.
As previously discussed, Plaintiff cannot properly
maintain an action based on these statutes. “Generally,
criminal statutes do not confer private rights of action,
and thus any party asserting such a private right
bears the burden of establishing its existence.” (Grajeda
v. Bank of America, NA. (S.D. Cal., June 10, 2013,
No. 12-CV-1716-IEG NLS) 2013 WL 2481548, at *2
[dismissing claim under Section 115(a) in a wrongful
foreclosure case because the plaintiff provided no
authority supporting contention a private right of
action exists].) Once again, Plaintiff provides no
authority demonstrating a private right of action exists and does not address this argument in opposition.
(See People v. Dougherty, supra, 138 Cal.App.3d at
p. 282.) Courts have otherwise held Section 115 does
not provide citizens with a private right of action.

App.77a
(Patino v. Franklin Credit Management Corporation
(N.D. Cal., Aug. 29, 2016, No. 16-CV-02695-LB) 2016
WL 4549001, at *3.) As such, Plaintiff fails to state a
claim for violations of Sections 115(a) and 115.5(a).
As the second cause of action fails to allege facts
supporting any statutory violation or that Plaintiff
has standing to assert this claim, the demurrer to
this cause of action is sustained.
3. Third Cause of Action —
Unlawful Foreclosure
Plaintiff alleges Defendant wrongfully foreclosed
on the Subject Property because the DOT and Note
were improperly moved into WaMu AR19 and Brignac
fraudulently executed the ADOT. (SAC, ¶¶ 99-101.)
As a result, the subsequently executed documents
are void. (Id. at ¶ 101.)
Defendant contends Plaintiff fails to plead he
tendered the sum of indebtedness. Defendant previously
successfully asserted this same argument in its prior
demurrer. As before, the argument has merit. As a
general rule, a debtor cannot set aside a foreclosure
without also alleging he or she paid the secured debt
before the action is commenced. (Lona v. Citibank N.A.
(2011) 202 Cal.App.4th 89, 112; Lueras v. BAC Home
Loans Servicing, LP (2013) 221 Cal.App.4th 49, 8687.) This is often referred to as the “tender rule.”
(See Lona v. Citibank NA., supra, 202 Cal.App.4th at
p. 115.) Here, Plaintiff does not allege he tendered
the amount due on his loan or made an offer to do so.
Instead, he insists the tender rule is inapplicable
because he alleges the documents initiating the foreclosure are void. Tender is not required where “the
trustor is not required to rely on equity to attack the

App.78a
deed because the trustee’s deed is void on its face.”
(Id. at pp. 112-113.) As discussed above, even assuming
he adequately alleges Brignac lacked authority and the
securitization was defective, these defects only render
the ADOT voidable, not void. Therefore, the exception
to the tender rule is inapplicable and Plaintiff is
required to plead he tendered the amount due.
Plaintiff’s argument in opposition does not support
a contrary conclusion. Plaintiff asserts that, under
Yvanova, a borrower is not required to plead compliance
with the tender rule. Yvanova, however, does not stand
for that proposition. On the issue of tender, the
California Supreme Court noted that tender is excused
when the underlying deed of trust is void, and then
stated it “[e]xpress[es] no opinion as to whether [the]
plaintiff . . . must allege tender to state a cause of
action for wrongful foreclosure under the circumstances
of this case.” (Yvanova, supra, 62 Cal.4th at p. 929, fn.
4.) Thus, Yvanova reiterated the above-stated law, and
then explicitly declined to rule on that point. Consequently, Yvanova does not stand for the proposition
that Plaintiff is excused from pleading he tendered
the amount due.
Accordingly, the demurrer to the third cause of
action is sustained on the bases Plaintiff failed to
plead he tendered the amount due and lacks standing.
4. Fourth Cause of Action —
Slander of Title
Plaintiff alleges the DOT and Note were “improperly moved” into WaMu ARl9 and Brignac fraudulently
executed the ADOT. (SAC, ¶¶ 109, 11.) As a result,
all subsequently executed documents, including the

App.79a
NOD, SOT1, SOT2, Three NOTS, and TDUS, are void.
(Id. at¶ 111.)
Defendant first insists this cause of action is
barred by the statute of limitations. Specifically,
Defendant maintains the limitations period is three
years and this action was only initiated in 2017,
more than three years after when it ceased being the
mortgage servicer in 2013. Defendant unsuccessfully
advanced an identical argument in its demurrer to
the FAC. The argument remains problematic for the
same reasons here.
A general demurrer will lie where a statute of
limitations defense appears clearly and affirmatively
from the face of the complaint. ( E - Fab., Inc. v.
Accountants, Inc. Services (2007) 153 Cal.App.4th
1308, 1315-16.) In determining whether a claim is
time-barred, a court must determine (1) which statute
of limitations applies and (2) when the plaintiff’s
claim accrued. (Id. at p. 1316.)
Defendant correctly states the claim is governed
by the three-year statute of limitations set forth in
Code of Civil Procedure section 338, subdivision (g),
which provides an action for slander of title is subject
to a three-year limitation period. However, as the
Court noted in its prior ruling, Defendant fails to
address when Plaintiff’s claim accrued. This is
particularly problematic because the cause of action
is predicated on the recording of eight separate documents, each forming a basis for the cause of action.
Defendant’s failure to identify when the claim
accrued relative to each document renders its argument
unsubstantiated. Although the Court already indicated
Defendant must provide a more in-depth analysis to

App.80a
successfully advance this argument, it has failed to
do so here.
Defendant’s argument is additionally defective
because, as stated above, the claim is predicated on
the existence of eight allegedly fraudulent documents.
Defendant’s argument relies on the premise that it
cannot be liable for any conduct arising after 2013
because it was not the mortgage servicer. As discussed
above, this position is flawed because Plaintiff adequately alleges Defendant was engaged in a conspiracy, which could render it liable for its conspirators’
actions. Accordingly, the demurrer cannot be sustained
on the basis the claim is time-barred because the
demurrer would not dispose of the entire claim. (See
PH II, Inc. v. Superior Court, supra, 33 Cal.App.4th
at p. 1682.)
Next, Defendant argues Plaintiff fails to allege
he suffered a pecuniary loss, which is an essential
element of a slander of title cause of action. (Stalberg
v. Western Title Ins. Co. (1994) 27 Cal.App.4th 925,
929.) This argument is underdeveloped and not welltaken. “[W]here title was disparaged in a recorded
instrument, attorney fees and costs necessary to
clear title or remove the doubt cast on it by defendant’s
falsehood are, by themselves, sufficient pecuniary
damages for purposes of a cause of action for slander
of title.” (Sumner Hill Homeowners’ Assn., Inc. v. Rio
Mesa Holdings, LLC (2012) 205 Cal.App.4th 999,
1031, original italics.) Plaintiff alleges he incurred
attorney fees and costs by initiating this action to
clear title. (SAC, ¶ 116.) Defendant does not actually
address this allegation or advance any arguments as
to why it insufficiently alleges a loss.

App.81a
Regardless, Defendant correctly states that the
fourth cause of action fails to state sufficient facts to
constitute a cause of action for slander of title because
the subject publications are privileged. Slander of
title occurs when there is an unprivileged publication
of a false statement which disparages title to the
property and causes pecuniary loss. (Stalberg v.
Western Title Ins. Co., supra, 27 Cal.App.4th at p. 929.)
The mailing, publication, and delivery of foreclosure
notices and performance of statutory non-judicial
foreclosure procedures constitute privileged communications under Civil Code section 2924, subdivision (d).
(Kachlon v. Markowitz (2008) 168 Cal.App.4th 316,
340-41.) This privilege does not apply if the defendant
acted with actual malice, i.e., motivated by hatred or
ill will, or in reckless disregard of the plaintiff’s
rights. (Id. at p. 336.) Here, the slander of title claim is
predicated on the numerous recorded documents. Those
publications are privileged unless Plaintiff alleges
Defendants acted with malice. Although Plaintiff does
allege Defendant acted maliciously, this allegation is a
bare legal conclusion and does not adequately plead
malice. (See SAC, ¶ 115.) To adequately plead malice,
a plaintiff must do more than “use the words ‘malicious’
and ‘maliciously[;]’” he or she must allege facts supporting that conclusion. (Locke v. Mitchell (1936) 7
Cal.2d 599, 603; Boyich v. Howell (1963) 221 Cal.App.
2d 801, 803.) Plaintiff’s allegations fall short of this
standard. Thus, Plaintiff does not sufficiently plead
malice, and the mortgage documents cannot serve as
a basis for a slander of title claim.
Accordingly, the demurrer to the fourth cause of
action is sustained on the bases the subject documents
are privileged and Plaintiff lacks standing.

App.82a
5. Fifth Cause of Action —
Cancellation of Instruments
Plaintiff seeks a judicial determination that the
DOT was illegally and improperly moved into WaMu
AR19 and the transfer was void. (SAC, ¶ 120.) Plaintiff
additionally seeks to have the ADOT declared null
and void because it was fraudulently executed. (Id. at
¶ 121.) Last, Plaintiff seeks to have the subsequently
executed documents, including the NOD, SOT1, SOT2,
Three NOTS, and TDUS, declared null and void as
they are fruit of the poisonous tree. (Id. at ¶¶ 122123.)
Defendant insists the claim is barred by the
statute of limitations “to the extent the claim seeks
to cancel instruments that were recorded on or before
March 15, 2014.” (Mem. Ps. & As., p. 14: lis. 10-11.) For
the same reasons discussed above relative to the
fourth cause of action, Defendant fails to substantiate
its argument because it does not address when the
claim accrued. In addition, the demurrer is not sustainable because the claim is predicated on documents
recorded after March 15, 2014. The demurrer does
not dispose of the entire claim and is therefore not
sustainable on the ground that it is time-barred. (See
PH II, Inc. v. Superior Court, supra, 33 Cal.App.4th at
p. 1682.)
However, as discussed above, the demurrer to
the fifth cause of action for cancellation of instruments
is sustained on the basis Plaintiff lacks standing.

App.83a
6. Sixth Cause of Action —
Unfair Business Practices
Plaintiff alleges Defendant violated Business and
Professions Code section 17200, et seq. (“UCL”) by
proceeding with an unlawful nonjudicial foreclosure
and causing the invalid property documents to be
recorded. (SAC, ¶¶ 131-139.)
“The UCL prohibits, and provides civil remedies
for, unfair competition, which it defines as ‘any
unlawful, unfair or fraudulent business act or practice.’
Its purpose ‘is to protect both consumers and
competitors by promoting fair competition in commercial markets for goods and services.’” (Kwikset Corp.
v. Superior Court (2011) 51 Cal.4th 310, 320, citations
omitted.) “Because . . . section 17200 is written in the
disjunctive, it establishes three varieties of unfair
competition-acts or practices which are unlawful, or
unfair, or fraudulent. In other words, a practice is
prohibited as unfair or deceptive even if not unlawful
and vice versa.” (Puentes v. Wells Fargo Home Mortgage, Inc. (2008) 160 Cal.App.4th 638, 644, citations
and quotations marks omitted.) While not clearly
articulated, it appears from the pleading that Plaintiff’s
claim is based on the unlawful and unfair prongs.
As to the unlawful prong, Defendant argues the
predicate claims lack merit, and thus this claim also
lacks merit. This argument is well-taken. As Plaintiff
fails to allege any unlawful activity, it therefore
follows that he cannot state a claim for violation of
the UCL based on the same allegations. (See Graham
v. Bank of America, N.A. (2014) 226 Cal.App.4th 594,
610; see also Avila v. Wells Fargo Bank National
Association (N.D. Cal., Dec. 23, 2016, No. C 16-05904
WHA) 2016 WL 7425925, *6 [sustaining demurrer as

App.84a
to a UCL claim because the plaintiff’s other theories
of “defendant’s impropriety fail”].)
Turning to the unfair prong, Defendant contends
Plaintiff does not plead it with requisite specificity.
While it is true that a plaintiff asserting a UCL claim
must plead it with particularity (see Khoury v. Maly’s
of California, Inc. (1993) 14 Cal.App.4th 612, 619),
Defendant fails to substantiate its argument that Plaintiff does not do so here. Defendant simply states
Plaintiff fails to plead this claim with particularity
without further explanation. It otherwise appears
Plaintiff alleges facts supporting this cause of action
with requisite specificity as he specifically alleges the
actions he contends are unfair and the injury he
suffered, namely the loss of his home. As such, the
demurrer is not sustainable on the basis Plaintiff
failed to adequately allege this claim with requisite
particularity.
Relative to both prongs, Defendant asserts Plaintiff
fails to allege a loss of money or property caused by
its purported misconduct. Defendant argues Plaintiff’s
only alleged injury-the loss of his home—was not
caused by its actions. A plaintiff must plead he or she
“has suffered injury in fact and has lost money or
property as a result of the unfair competition.” (Bus. &
Prof. Code, § 17204.) This requires showing a “causal
link between [the alleged] economic injury, [the loss
or impending loss of property to foreclosure]” and the
defendant’s allegedly unfair or unlawful business
practices. (Jenkins v. JP Morgan Chase Bank, NA.
(2013) 216 Cal.App.4th 497, 523, disapproved of on
other grounds by Yvanova v. New Century Mortg. Corp.
(2016) 62 Cal.4th 919.) A plaintiff fails to satisfy the
causation prong of the statute if he or she would

App.85a
have suffered “the same harm whether or not a
defendant complied with the law.” (Darn v. Superior
Court (2007) 151 Cal.App.4th 1079, 1099.)
Here, Plaintiff fails to adequately allege Defendant
caused his injuries. Plaintiff does not allege that he
would not have suffered the loss of home absent
Defendant’s actions and it does not appear he would
be able to do so. (SAC, ¶ 137.) The foreclosure process
is triggered by a plaintiff defaulting on a mortgage loan,
and there are no allegations here that any actions of
Defendant triggered Plaintiff’s default. (See Rahbarian
v. JP Morgan Chase (E.D. Cal., Nov. 10, 2014, No.
2:14-CV-01488 JAM) 2014 WL 5823103, at *11.) As
such, Plaintiff fails to allege his injury was caused by
Defendant’s actions.
Accordingly, the demurrer to the sixth cause of
action as Plaintiff fails to state a claim under the
unfair and unlawful prongs, fails to plead the element
of causation, and lacks standing.
C. Conclusion
For the foregoing reasons, the demurrer to the
first through sixth causes of action on the ground of
failure to state sufficient facts to constitute a cause
of action is SUSTAINED WITHOUT LEAVE TO
AMEND. Plaintiff’s lack of standing is a non-curable
defect. Plaintiff has twice amended the pleading and
failed to allege new facts curing this deficiency. In
addition, he fails to provide any facts suggesting he
would be able to do so. As noted above, the newly
claimed theory of forgery does not cure the standing
problems. (See Saterbak, supra, 245 Cal.App.4th at
p. 814 [lack of standing when plaintiff expressly
alleged assignment was forged].) It also does not appear

App.86a
that any argument predicated on the “staleness” of
the NOD would cure the defects as there are no
statutory provisions requiring a foreclosing entity to
re-issue a notice of default after a specified time. As
such, leave to amend is not warranted. (See Goodman
v. Kennedy (1976) 18 Cal.3d 335, 349 [a “[p]laintiff
must show in what manner he [or she] can amend
his [or her] complaint and how that amendment will
change the legal effect of the pleading”].) As noted,
the arguments made at the hearing do not provide a
sufficient basis to grant leave to amend.
III. Motion to Strike
As all causes of action have been eliminated by
this Court’s ruling on the demurrer, the motion to
strike punitive damages is MOOT.
Defendant shall submit a proposed judgment
either approved as to form or with proof of compliance
with Rules of Court, Rule 3.1312.

/s/ Hon. Mary E. Arand
Judge of the Superior Court
Date: February 7, 2018

App.87a
ORDER RE: DEMURRER FILED BY DEFENDANTS
SELECT PORTFOLIO SERVICING AND U.S. BANK
(JANUARY 31, 2018)
SUPERIOR COURT OF CALIFORNIA
COUNTY OF SANTA CLARA
________________________
VINCENT TANG,

Plaintiff,
v.
JPMORGAN CHASE BANK; ET AL.,

Defendants.
________________________
Case No.: 17-CV-307324
Before: Mary E. ARAND, Judge.
The demurrer to the second amended complaint
filed by defendants Select Portfolio Servicing and U.S.
Bank, N.A. came on for hearing before the Honorable
Mary E. Arand on January, 30, 2018, at 9:00 a.m. in
Department 9. The matter having been submitted,
the Court orders as follows:
This is a wrongful foreclosure action initiated by
plaintiff Vincent Tang (“Plaintiff”) against defendants
JPMorgan Chase Bank (“JPMorgan”), Quality Loan
Service Corporation (“QLS”), Deborah Brignac (“Brignac”), U.S. Bank, N.A. (“U.S. Bank”), Select Portfolio
Servicing (“SPS”), Orchid Terrace Inc., Monte Vista

App.88a
Oaks, Inc., Monte Vista Oaks DB Plan, and KIP Dream
Homes.
According to the operative second amended
complaint (“SAC”), Plaintiff owns property located at
2739 Clover Meadow Court, San Jose, CA (“Subject
Property”). (SAC, ¶ 2.) On June 27, 2005, Plaintiff
obtained a loan from Washington Mutual Bank
(“WaMu”) in the amount of $825,000.00 and secured
the loan by a deed of trust (“DOT”) on the Subject
Property. (Id. at ¶ 42.) The DOT and promissory note
(“Note”) named WaMu as the beneficiary and California
Reconveyance Company (“CRC”) as the trustee. (Id.
at ¶ 43.) On October 2, 2008, JPMorgan purchased
WaMu as a result of a receivership ordered by the
Federal Deposit Insurance Corporation (“FDIC”). (Id.
at ¶ 44.)
On March 1, 2010, CRC recorded a notice of
default on the Subject Property (“NOD”). (SAC, ¶ 45.)
That same day, an assignment of the DOT (“ADOT”)
to Bank of America (“BANA”), as successor by merger
to LaSalle Bank NA and as trustee to the WaMu
Mortgage Pass-Through Certificate Series 2005-AR19
(“WaMu AR19”), was recorded. (Id. at ¶ 47.) The ADOT
is void because its executor, Brignac, represented she
signed it “under the authority of being a Vice President
of [JPMorgan],” she but never held that position. (Id.
at ¶ 50.) Instead, she was a foreclosure specialist and
supervisor for CRC. (Ibid.) The ADOT is additionally
void because it purported to transfer the DOT into
WaMu AR19 on or about February 26, 2010, almost
five years after the pool had closed. (Id. at ¶ 52.)
Thereafter, U.S. Bank, through SPS, substituted
ALAW as trustee (“SOT1”). (SAC, ¶¶ 56-57.) There is
no recorded document transferring interest to U.S.

App.89a
Bank. (Ibid.) The SOT1 is void because neither U.S.
Bank, SPS, nor WaMu AR19 had a beneficial interest
in the DOT or Note at that time, and therefore had
no interest to assign. (Ibid.) Two years later, QLS
was substituted as trustee (“SOT2”). (Id. at ¶ 58.)
The SOT2 is void because neither U.S. Bank, SPS,
nor WaMu AR19 had a beneficial interest in the DOT
or Note at that time. (Id. at ¶ 59.) QLS then recorded
three notices of trustee sale on March 24, 2016, June
14, 2016, and November 1, 2016 (“Three NOTS”). (Id.
at ¶ 60.)
QLS subsequently sold the Subject Property to
Orchid Terrace, Inc., Monte Vista Oaks Inc., Monte
Visa Oaks DB Plan, and KIP Dream Homes at a foreclosure action. (SAC, ¶ 62.) Their status as bona fide
purchasers is “void and voidable at the option of the
Plaintiff’ because they do not have certificates of qualification as required for foreign business entities and
are not registered with the California Secretary of
State. (Id. at ¶ 63.) After the sale, a trustee’s deed upon
sale (“TDUS”) was recorded, which is also void because
“defendants” did not have the lawful authority to
foreclose. (Id. at ¶¶ 64-65.)
Plaintiff asserts causes of action for: (1) declaratory
judgment; (2) “statutory violations;” (4) unlawful foreclosure; (5) slander of title; (6) cancellation of instruments; and (7) unfair business practices.
SPS and U.S. Bank (“Defendants”) presently
demur to the SAC on the ground of failure to state
sufficient facts to constitute a cause of action.
Defendants argue Plaintiff fails to state a claim
relative to all causes of action on the basis of standing

App.90a
and asserts specific arguments applicable to individual
causes of action. The Court will first address standing.
As a preliminary matter, the Court previously
sustained JPMorgan’s demurrers to the complaint
and the first amended complaint. Those pleadings
asserted five causes of action for “statutory violations,”
unlawful foreclosure, slander of title, cancellation of
instruments, and unfair business practices. Although
the prior orders did not permit Plaintiff to amend the
pleading to include a new cause of action, he asserts
a declaratory relief cause of action for the first time
in the SAC.
“Following an order sustaining a demurrer or a
motion for judgment on the pleadings with leave to
amend, the plaintiff may amend his or her complaint
only as authorized by the court’s order. The plaintiff
may not amend the complaint to add a new cause of
action without having obtained permission to do so,
unless the new cause of action is within the scope of
the order granting leave to amend.” (Harris v. Wachovia
Mortg., FSB (2010) 185 Cal.App.4th 1018, 1023, internal citations omitted.) A court may, in its discretion,
strike new causes of action when they are not drawn
in conformity with its prior order. (See Code Civ.
Proc., § 436, subd. (b); Ferraro v. Camarlinghi (2008)
161 Cal.App.4th 509, 528 [“[Section 436] is commonly
invoked to challenge pleadings filed in violation of a
deadline, court order, or requirement of prior leave of
court”].) As Plaintiff did not seek permission to include
the declaratory relief cause of action, the first cause
of action of the SAC is hereby stricken. It is therefore

App.91a
unnecessary to discuss the merits of the demurrer
relative to the first cause of action.1
I.

Standing

There appear to be two allegations forming the
basis for Plaintiff’s standing to initiate this action.
First, the ADOT is void based on Brignac’s lack of
authority to execute it.2 Second, the ADOT is void
because the DOT was not timely assigned into WaMu
AR19.3 Defendants argue Plaintiff does not have
standing under either theory.
1 Even if the Court were to address them, Defendants’ arguments
have merit. (See Mendoza v. JPMorgan Chase Bank NA. (2016)
6 Cal.App.5th 802, 820-821 (“Mendoza”) [declaratory relief
claim is inadequately stated when merely duplicative of other
causes of action and, in a foreclosure case, the property has
already been sold].)
2 Defendants also identify two other potential grounds on which
Plaintiff bases his claims, such as the staleness of the notice of
default. However, it is not apparent to the Court that all five
causes of action are based on those two allegations. While
Plaintiff refers to those two bases in the background facts, in
the bodies of the causes of action he explicitly pleads they are
predicated on the securitization of the loan and Brignac’s purported
lack of authority. (See, e.g., SAC ¶¶ 98-101.) Therefore, the two
other bases appear to be surplusage. The Court otherwise finds
the two other potential bases for Plaintiff’s claims do not
support a finding that he has standing to sue.
3 Plaintiff also suggests that perhaps the DOT was never actually
placed in WaMu AR19 because such transfer was not listed on a
website. Based on the pleading, it does not appear that this
allegation was intended to form a separate and distinct basis for
Plaintiff’s claims. This interpretation is supported by Plaintiff’s
opposition, as he does not dispute Defendants’ characterization
of his claims as only focusing on the timeliness of the transfer.

App.92a
“Standing is a threshold issue, because without
it no justiciable controversy exists. Standing goes to
the existence of a cause of action. Pursuant to Code
of Civil Procedure section 367, ‘[e]very action must
be prosecuted in the name of the real party in
interest, except as otherwise provided by statute.’”
(Saterbak v. JPMorgan Chase Bank, NA. (2016) 245
Cal.App.4th 808, 813 (“Saterbak”), internal citations
and quotation marks omitted.) A plaintiff who initiates
a post-foreclosure action has standing to challenge
the validity of an assignment if it is void. (Yvanova v.
New Century Mortg. Corp. (2016) 62 Cal.4th 919, 943
(“Yvanova”).) The difference between void and voidable
is crucial for the discussion of standing as “[a] void
contract is without legal effect” and may not be ratified
by the parties, while a voidable contract is still subject to ratification by the parties. (Id. at pp. 929-930.)
Thus, while a plaintiff has standing to challenge a void
assignment, he or she lacks standing to challenge one
that is merely voidable. (Saterbak, supra, 245 Cal.App.
4th at p. 815.) To plead an assignment is void, a ‘plaintiff may not simply allege as much as a conclusion;
rather, he or she must allege a factual basis supporting
the conclusion. (Gomes v. Countrywide Home Loans,
Inc. (2011) 192 Cal.App.4th 1149, 1156.)
First, Plaintiff alleges Brignac’s recording of the
ADOT was fraudulent because she executed it “under
the authority of being a Vice President of Defendant,”
however, she never held that position. (SAC, ¶ 50.)
Plaintiff pleads Brignac was actually a foreclosure
specialist and supervisor for the California Reconveyance Company. (Ibid.)
This allegation fails to confer standing on Plaintiff;
allegations that a written instrument is void because

App.93a
the signatory was allegedly employed by another entity
are insufficient to invalidate the instrument. (See

Kalnoki v. First American Trustee Servicing Solutions,
LLC (2017) 8 Cal.App.5th 23, 46; see also Rahbarian
v. JP Morgan Chase (E.D. Cal., Nov. 10, 2014, No. 2:14CV-01488 JAM) 2014 WL 5823103, at *8 [“The mere
fact that Derborah [sic] Brignac was not an employee
of JPMorgan and Colleen Irby was not an employee
of CRC does not give rise to a reasonable inference
that they did not have the authority to sign documents
on behalf of those companies.”].) Being an employee
of one entity does not necessarily disqualify a signatory
from being authorized on behalf of another entity to
sign on its behalf. (Mendoza, supra, 6 Cal.App.5th at
p. 819.) Moreover, contrary to Plaintiff’s arguments,
the emphasis of his allegations is on Brignac’s employment, not her lack of authority to execute the ADOT.
(See SAC, ¶ 50.) Plaintiff does not actually allege she
was not authorized to execute the ADOT.
The allegations are additionally insufficient to
confer standing because where a plaintiff alleges that
a document is void due to the signatory’s lack of
authority to execute the document, yet does not contest the validity of the underlying debt, the plaintiff
lacks standing to contest the assignment. (Pratap v.
Wells Fargo Bank, N.A. (N.D. Cal. 2014) 63 F.Supp.3d
1101, 1109.) Further, it is well-established that these
allegations render an assignment only voidable, not
void. (Javaheri v. JPMorgan Chase Bank, NA. (C.D.
Cal., Aug. 13, 2012, No. 2:10-CV-08185-DW 012 WL
3426278, at *6.) Because the ADOT would only be
voidable, Plaintiff lacks standing to challenge Defend-

App.94a
ants’ authority based on Brignac’s execution of the
document.4
Next, Plaintiff alleges the ADOT is void because
the DOT was transferred into WaMu AR19 on or
about February 26, 2010, almost five years after the
pool had closed. (SAC, ¶ 52.) Defendants also contend
Plaintiff lacks standing to challenge the transfer to
the pool because a defect in the securitization only
renders the assignment voidable and not void. This
argument is well-taken. Plaintiff does not address this
argument in opposition, tacitly conceding its merit. A
defect in the securitization process only renders the
assignment voidable, not void.5 (See Saterbak, supra,
245 Cal.App.4th at p. 815.) Because a plaintiff does
not have standing to challenge an assignment that is
merely voidable, Plaintiff lacks standing here to the
extent the action is predicated on the transfer of the
DOT into the pool.
Plaintiff does not advance any arguments supporting the conclusion that he has standing to sue.
Plaintiff asserts he has standing pursuant to paragraph 22 of the DOT. Paragraph 22 of the DOT
4 Plaintiff’s argument that the ADOT was a forgery does not
support a contrary conclusion. An express allegation that the
document was forged does not alter the standing analysis. (See
Saterbak, supra, 245 Cal.App.4th at p. 814 [lack of standing
when plaintiff expressly alleged assignment was forged].)
5 Plaintiff’s only reference to securitization is that the cases
cited rely on New York law governing the securitization
process. However, the outcome is the same regardless whether
the Court applies New York or California law. (See Gutierrez v.
Bank of America, N.A. (E.D. Cal., Apr. 8, 2014, No. 2:13-CV01695-TLN-AC) 2014 WL 1379883, at *6, fn. 2 [a plaintiff may
not challenge securitization process under California law].)

App.95a
states Plaintiff shall have the right to bring a court
action to assert the non-existence of a default or any
other defense to the sale. Plaintiff insists the DOT is
essentially a contract and should be governed by contract law and not foreclosure statutes. Paragraph 22
does not purport to grant Plaintiff standing in any
context to initiate an action; it states that prior to
“acceleration,” the lender must provide Plaintiff with
written notice of certain information, including that
he has “the right to bring a court action to assert the
non-existence of a default or any other defense . . . to
acceleration and sale.” Insuring Plaintiff is informed
of his ability to initiate an action does not automatically
confer standing on him. (See Saterbak, supra, 245
Cal.App.4th at p. 816 [stating similar “provisions
do not change [a plaintiff’s] standing obligations under
California law”]; see also Yhudai v. Impac Funding
Corporation (2016) 1 Cal.App.5th 1252, 1260.) As such,
paragraph 22 of the DOT does not confer standing on
Plaintiff.
In sum, Plaintiff lacks standing to assert each
cause of action to the extent they are predicated on
Brignac’s lack of authority (or new claims of forgery),
the assignment of the DOT into the pool, and the
language of paragraph 22 of the DOT.
II.

Arguments Applicable to Individual Causes of
Action
A. Second Cause of Action —
Statutory Violations

Plaintiff pleads Defendants violated Civil Code
sections 2924.17, subdivision (b) (“Section 2924.17(b)”)
and 2924f, subdivision (b)(1) (“Section 2924f(b)(1)”),

App.96a
which are provisions of the Homeowner Bill of Rights
(“HBOR”), as well as Penal Code sections 115, subdivision (a) (“Section 115(a)”) and 115.5, subdivision (a)
(“Section 115.5(a)”). The violations of these statutes are
predicated on defects in the NOD, ADOT, SOT1, SOT2,
Three NOTS, and TDUS.
First, Defendants maintain Plaintiff fails to allege
a violation of Section 2924.17, which “place[s] a burden
on the foreclosing party to file a declaration with the
notice of default, and provide[s] requirements for the
lender’s diligence prior to filing that declaration.”
(Lucioni v. Bank of America, NA. (2016) 3 Cal.App.5th
150, 163.) Subdivision (b) of that statute requires that,
prior to recording or filing any foreclosure-related
documents, “a mortgage servicer shall ensure that it
has reviewed competent and reliable evidence to
substantiate the borrower’s default and the right to
foreclose, including the borrower’s loan status and
loan information.” (Civ. Code, § 2924.17, subd. (b).)
Specific to this provision, Plaintiff alleges Defendants
foreclosed upon the Subject Property without reviewing
competent and reliable information. (SAC, ¶ 88.)
Defendants insist the allegation is inadequate because
it is conclusory and without detail. This argument
has merit. Statutory claims must be pleaded with
particularity. (Covenant Care, Inc. v. Superior Court
(2004) 32 Cal.4th 771, 783.) This requires plaintiffs
to “set forth facts in his [or her] complaint sufficiently
detailed and specific to support an inference that
each of the statutory elements of liability is satisfied”
because “[g]eneral allegations are regarded as
inadequate.” (Mittenhuber v. City of Redondo Beach
(1983) 142 Cal.App.3d 1, 5.) Plaintiff fails to meet this
standard. Plaintiff only pleads the legal conclusion

App.97a
that Defendants failed to review the proper material.
There are no detailed allegations relating to Defendants’ review of material reflecting Plaintiffs loan
status and how that review was inadequate.
Next, Section 2924f(b)(1) provides that prior to
the sale of property pursuant to the power of sale
contained in any deed of trust or mortgage, “notice of
the sale thereof shall be given by posting a written
notice of the time of sale and of the street address
and the specific place at the street address where the
sale will be held, and describing the property to be
sold, at least 20 days before the date of sale in one
public place in the city where the property is to be
sold, if the property is to be sold in a city, or, if not,
then in one public place in the county seat of the
county where the property is to be sold, and publishing
a copy once a week for three consecutive calendar
weeks.” Defendants aptly argue Plaintiff fails to
allege any violation of this statute with particularity.
Plaintiffs fail to specify the inaccuracies of any of the
Three NOTS. (SAC, ¶ 90.)
In addition, Defendants argue Plaintiff fails to
allege any material violations of Section 2924.17.
Defendants do not indicate where the materiality
requirement is found. Presumably, Defendants rely on
Civil Code section 2924.12, which provides that a
plaintiff may only bring an action based on certain
enumerated Civil Code provisions if the violation is
material. However, Section 2924.12 does not specifically identify Section 2924f(b)(1) as a provision whose
violation must be material. As such, Defendants’ argument lacks merit.
Turning to the alleged violations of the Penal Code,
Defendants aptly assert Plaintiff does not state a

App.98a
claim for a violation of Sections 115(a) and 115.5(a)
because he has no standing to enforce criminal statutes. “Generally, criminal statutes do not confer private
rights of action, and thus any party asserting such a
private right bears the burden of establishing its
existence.” (Grajeda v. Bank of America, NA. (S.D.
Cal., June 10, 2013, No. 12-CV-1716-IEG NLS) 2013
WL 2481548, at *2 [dismissing claim under Section 115
(a) in a wrongful foreclosure case because the plaintiff
provided no authority supporting contention a private
right of action exists].) Courts have otherwise held
Section 115 does not provide citizens with a private
right of action. (Patina v. Franklin Credit Management
Corporation (N.D. Cal., Aug. 29, 2016, No. 16-CV02695-LB) 2016 WL 4549001, at *3.) As such, Plaintiff
fails to state a claim for violations of Sections 115(a)
and 115.5(a).
As the second cause of action fails to allege facts
supporting any statutory violation or that Plaintiff
has standing to assert this claim, the demurrer to
this cause of action is sustained.
B. Third Cause of Action —
Unlawful Foreclosure
Plaintiff alleges Defendants wrongfully foreclosed
on the Subject Property because the DOT and Note
were improperly moved into WaMu ARl9 and Brignac
fraudulently executed the ADOT. (SAC, ¶¶ 99-.101.)
As a result, the subsequently executed documents are
void. (Id. at ¶ 101.)
Defendants contend Plaintiff fails to plead he tendered the sum of indebtedness. This argument has
merit. A general rule, a debtor cannot set aside a
foreclosure without also alleging he or she paid the

App.99a
secured debt before the action is commenced. (Lona v.
Citibank N.A. (2011) 202 Cal.App.4th 89, 112; Lueras
v. BAC Home Loans Servicing, LP (2013) 221 Cal.
App.4th 49, 86-87.) This is often referred to as the
“tender rule.” (See Lona v. Citibank, NA., supra, 202
Cal.App.4th at p. 115.) Here, Plaintiff does not allege
he tendered the amount due on his loan or made an
offer to do so. Instead, he insists the tender rule is
inapplicable because he alleges the documents initiating the foreclosure are void. Tender is not required
where “the trustor is not required to rely on equity to
attack the deed because the trustee’s deed is void on its
face.” (Id. at pp. 112-113.) As discussed above, even
assuming he adequately alleges Brignac lacked authority and the securitization was defective, these defects
only render the ADOT voidable, not void. Therefore,
the exception to the tender rule is inapplicable and
Plaintiff is required to plead he tendered the amount
due.
Plaintiff’s argument in opposition does not support
a different conclusion. Plaintiff asserts that, under
Yvanova, a borrower is not required to plead compliance
with the tender rule. Yvanova, however, does not
stand for that proposition. On the issue of tender, the
California Supreme Court noted that tender is excused
when the underlying deed of trust is void, and then
stated it “[e]xpress[es] no opinion as to whether [the]
plaintiff . . . must allege tender to state a cause of
action for wrongful foreclosure under the circumstances
of this case.” (Yvanova, supra, 62 Cal.4th at p. 929, fn.
4.) Thus, Yvanova reiterated the above-stated law,
and then explicitly declined to rule on that point. Consequently, Yvanova does not stand for the proposition

App.100a
that Plaintiff is excused from pleading he tendered the
amount due.
Accordingly, the demurrer to the third cause of
action is sustained on the bases Plaintiff failed to
plead he tendered the amount due and lacks standing.
C. Fourth Cause of Action —
Slander of Title
Plaintiff alleges the DOT and Note were “improperly moved” into WaMu ARl9 and Brignac fraudulently
executed the ADOT. (SAC, ¶¶ 109, 11.) As a result, all
subsequently executed documents, including the NOD,
SOT1, SOT2, Three NOTS, and TDUS, are void. (Id.
at ¶ 111.)
It is clear based on Defendants’ arguments and
the Court’s prior orders relative to the complaint and
the first amended complaint that this cause of action
has no merit. However, this cause of action is expressly
only directed to QLS and JPMorgan; it is not asserted
against either U.S. Bank or SPS. As such, Defendants
may not properly challenge the adequacy of this
cause of action by demurrer. This ruling is not a
reflection of the sufficiency of Plaintiff’s allegations.
To the extent Plaintiff wants to add these parties to
this cause of action, it is not allowed without prior
court order.
D. Fifth Cause of Action —
Cancellation of Instruments
Plaintiff seeks a judicial determination that the
DOT was illegally and improperly moved into WaMu
AR19 and the transfer was void. (SAC, ¶ 120.) Plaintiff
additionally seeks to have the ADOT declared null

App.101a
and void because it was fraudulently executed. (Id. at
¶ 121.) Last, Plaintiff seeks to have the subsequently
executed documents, including the NOD, SOT1, SOT2,
Three NOTS, and TDUS, declared null and void as
they are fruit of the poisonous tree. (Id. at ¶¶ 122123.)
Defendants contend Plaintiff fails to state a claim
for cancellation of instruments because he does not
allege the element that there is a reasonable apprehension of serious injury due to the written instrument.
(See Civ. Code, § 3412; see Saterbak, supra, 245 Cal.
App.4th at p. 819 [elements of cancellation of instruments claim].) According to Defendants, Plaintiff
cannot plead he suffered a serious injury because he
alleges he defaulted on his mortgage and does not
allege he cured that debt. This argument is well-taken.
When a purportedly defective assignment does not
alter the plaintiffs payment obligations, he or she
has not suffered serious injury. (Saterbak, supra, 245
Cal.App.4th at p. 819.) Even when the subject assignment is invalid, “it could not ‘cause serious injury’
under the statute because [the] obligations on the
Note remained unchanged.” (Ibid., quoting Civ. Code,
§ 3412, original italics.) As Plaintiff does not dispute
he defaulted on the loan or that he satisfied his debt,
he fails to allege there is a reasonable apprehension
of serious injury.
Therefore, the demurrer to the fifth cause of action
for cancellation of instruments is sustained on the
bases Plaintiff fails to allege a serious injury and lacks
standing.

App.102a
E. Sixth Cause of Action —
Unfair Business Practices
Plaintiff alleges Defendants violated Business and
Professions Code section 17200, et seq. (“UCL”) by
proceeding with an unlawful nonjudicial foreclosure
and causing the invalid property documents to be
recorded. (SAC, ¶¶ 131-139.)
“The UCL prohibits, and provides civil remedies
for, unfair competition, which it defines as ‘any unlawful, unfair or fraudulent business act or practice.’ Its
purpose ‘is to protect both consumers and competitors
by promoting fair competition in commercial markets
for goods and services.’” (Kwikset Corp. v. Superior
Court (2011) 51 Cal.4th 310, 320, citations omitted.)
“Because . . . section 17200 is written in the disjunctive,
it establishes three varieties of unfair competitionacts or practices which are unlawful, or unfair, or
fraudulent. In other words, a practice is prohibited
as unfair or deceptive even if not unlawful and vice
versa.” (Puentes v. Wells Fargo Home Mortgage, Inc.
(2008) 160 Cal.App.4th 638, 644, citations and quotations marks omitted.) While not clearly articulated, it
appears from the pleading that Plaintiff’s claim is
based on the unlawful and unfair prongs. To the extent
Plaintiff’s claim is based on the unfairness prong, his
theories of unfairness are predicated on the same
allegedly improper activities as his previous claims,
such as the assignment of the DOT into WaMu AR19
and Brignac’s purported forgery.
Defendants contend the predicate claims lack
merit, and thus this claim also lacks merit. This argument is well-taken. As Plaintiff fails to allege any
unlawful activity, it therefore follows that he cannot
state a claim for violation of the UCL based on the

App.103a
same allegations. (See Graham v. Bank of America,
N.A. (2014) 226 Cal.App.4th 594, 610; see also Avila
v. Wells Fargo Bank, National Association (N.D.
Cal., Dec. 23, 2016, No. C 16-05904 WHA) 2016 WL
7425925, *6 [sustaining demurrer as to a UCL claim
because the plaintiff’s other theories of “defendant’s
impropriety fail”].)
Accordingly, the demurrer to the sixth cause of
action is sustainable as Plaintiff fails to state a claim
under the unfair and unlawful prongs and lacks
standing.
III. Conclusion
For the foregoing reasons, the demurrer to the
first cause of action is MOOT as the Court has stricken
that cause of action, and otherwise does not state a
cause of action. The demurrer to the fourth cause of
action is OVERRULED. The demurrer to the second,
third, fifth, and sixth causes of action on the ground
of failure to state sufficient facts to constitute a
cause of action is SUSTAINED WITHOUT LEAVE
TO AMEND. Although Plaintiff seeks leave to amend,
he does not provide any facts suggesting how he would
be able to amend the many deficiencies in this pleading.
(See Goodman v. Kennedy (1976) 18 Cal.3d 335, 349
[a “[p]laintiff must show in what manner he [or she] can
amend his [or her] complaint and how that amendment
will change the legal effect of the pleading”].) As
noted above, the newly claimed theory of forgery does,
cure the standing problems. (See Saterbak supra,
245 Cal.App.4th at p. 814 [lack of standing when
plaintiff expressly alleged assignment was forged].)

App.104a
Plaintiff is instructed not to file any other
pleadings without permission from the Court related
to the motions pending before the Court.
Defendants shall submit a proposed judgment
either approved as to form or with proof of compliance
with Rules of Court, Rule 3.1312.

/s/ Hon. Mary E. Arand
Judge of the Superior Court
Date: January 30, 2018

App.105a
ORDER OF THE COURT OF APPEALS
OF THE STATE OF CALIFORNIA
FOR THE SIXTH APPELLATE DISTRICT
DENYING PETITION FOR REHEARING
(DECEMBER 30, 2020)
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA SIXTH APPELLATE DISTRICT
________________________
VINCENT TANG,

Plaintiff and
Appellant,
v.
JP MORGAN CHASE BANK ET AL.,

Defendants and
Respondents.
________________________
H045898, H046697
Santa Clara County Super. Ct. No. CV307324
Before: GREENWOOD, P.J., GROVER, J.,
and DANNER, J.
BY THE COURT:
Appellant’s petition for rehearing is denied.

 Before Greenwood, P.J., Grover, J., and Danner, J.

App.106a
/s/ Mary J. Greenwood
P.J.
Date: 12/30/2020

App.107a
LETTER TO COMMONWEALTH OF
MASSACHUSETTS WITH AFFIDAVIT OF JOHN
L. O’BRIEN, JR. ATTESTING ROBO SIGNED
SIGNATURE DOCUMENT
COMMONWEALTH OF MASSACHUSETTS
SOUTHERN ESSEX DISTRICT REGISTRY OF DEEDS
SHETLAND PARK
45 CONGRESS STREET
SUITE 4100,
SALEM, MASSACHUSETTS 01970
________________________
A division of the Secretary of the Commonwealth
WILLIAM FRANCIS GALVIN, SECRETARY
NAME
ADDRESS
ADDRESS
Dear,
In an attempt to provide you with more assistance,
I have enclosed, an affidavit signed by me, as Register
of the Southern Essex District Registry of Deeds,
attesting to the presence of a robo-signed signature
on your document as listed on McDonnell Property
Analytics Approved Robo-signers List. If you are
currently being foreclosed upon, this affidavit may be
presented to your attorney, the lender, or the court to
show that your chain of title has been corrupted. For
those of you who are not in foreclosure, the affidavit
may be presented to your current lender to show that
a robo-signed document has in fact been recorded in
your chain of title and be part of a request to investigate how this happened and what the lender is going
to do to correct it.

App.108a
Thank you for contacting us concerning your
robo-signed document. Should you have any further
questions or need assistance, please contact my
Customer Service Department at 978-542-1704.
With Regards,
/s/ John O’Brien
Register of Deeds

App.109a
AFFIDAVIT OF JOHN L. O’BRIEN, REGISTER OF DEEDS
SOUTHERN ESSEX DISTRICT
1. I, John L. O’Brien, Register of the Southern
Essex District Registry of Deeds, do hereby swear or
aver as follows:
2. As of June 2011 it has been my policy as
follows:
a. IF THERE ARE VARIATIONS OF AN
ALLEGED ROBO-SIGNER ON RECORD AT MY
REGISTRY — I require that all documents sent for
recording that are executed by that alleged robosigner, be independently verified by an affidavit that
the signature is in fact the signature of the named
individual, prior to recording. (See Exhibit B attached
hereto):
b. IF THERE ARE NO VARIATIONS OF AN
ALLEGED ROBO or SURROGATE SIGNER ON
RECORD AT MY REGISTRY — I record the documents
and forward them to the Massachusetts Attorney
General’s Office for review and possible violation of a
Crime Against Property, specifically MGL Chapter
266, Section 35A (b) (4).
3. I have instituted this policy based on the
opinion of our forensic analyst, Marie McDonnell of
McDonnell Property Analytics who has provided me
with a list of robo and surrogate signers.
McDonnell defines a “robo-signer” as: The

person on a legal document processing
assembly line whose only task is to sign previously prepared documents affecting title to
real property in a robotic-like fashion without reading the documents or verifying the

App.110a

facts contained therein by reviewing primary
source evidence. The robo-signer’s mission
is to expedite the documents’ recordation in
the public land records or in court proceedings. Additionally, robo-signers regularly fail
to establish or simply do not have the
authority to execute these documents on
behalf of the legal title holder or principal
on whose behalf they purport to act.
McDonnell defines a “surrogate signer” as:

A person who signs a legal document on
behalf of and in the name of another without
reading it or understanding the document’s
contents; surrogate-signers are not authorized
to execute these documents on behalf of the
legal title-holder or principal on whose behalf
they purport to act.
4. I am aware that ___ is an alleged robo or
surrogate signer.
Signed this ___ day of ___ 2012, under the pains
and penalties of perjury.
_______________
John L. O’Brien
Register

App.111a

COMMONWEALTH OF MASSACHUSETTS
SOUTHERN ESSEX DISTRICT REGISTRY OF DEEDS
SHETLAND PARK
45 CONGRESS STREET
SUITE 4100,
SALEM, MASSACHUSETTS 01970
________________________
A division of the Secretary of the Commonwealth
WILLIAM FRANCIS GALVIN, SECRETARY
Address
RE: Request for Recording of type of document (the
“Recording”)
Enclosed please find your Recording. Based
upon the fact that it is signed by a number of known
robo-signers, I am returning it to you. I will record it
upon receipt of a signed affidavit, a copy of which I
attach hereto (the “Affidavit”). The Affidavit must be
signed under the pains and penalties of perjury that
the Recording is accurate and the signatures of both
the signatory on the Recording and notary public’s
signature are authentic. As I am sure you are aware,
MGL Chapter 266, Section 35A (b) (4) provides that:
“Whoever intentionally: files or causes to be
filed with a registrar of deeds any document
that contains a material statement that is
false or a material omission, knowing such
document to contain a material statement
that is false or a material omission, shall be
punished by imprisonment in the state
prison for not more than 5 years or by

App.112a
imprisonment in the house of correction for
not more than 2 and one-half years or by a
fine of not more than $10,000 in the case of
a natural person or not more than $100,000
in the case of any other person, or by both
such fine and imprisonment.”
Once the Affidavit is prepared and notarized,
please forward it and your Recording to my attention
with a recording fee of $75 for each document, so in
this case $150 and I will make sure the documents
are put on record forthwith.
As the Register of Deeds for the Southern Essex
District of Massachusetts and the keeper of the records,
I am very concerned with some lenders business
practices and how they may affect homeowner’s chains
of title. I truly believe in the integrity of the land
recordation system. Thank you for your attention to
this important matter
Sincerely,
John O’Brien
Register of Deeds
Southern Essex District

App.113a
AFFIDAVIT IN SUPPORT OF FILING
I, _________ (“Declarant”), am a resident of
________, County of ________, State of ________, and
do hereby certify, swear or affirm, and declare that I
am competent to give the following declaration based
on my personal knowledge, and that the following
facts and things are true and correct:
1.

I am attorney duly licensed to practice law
and in good standing in

2.

I am representing (the “Client”).

3.

This Affidavit is in support of the following
recording:

4.

The purpose of the underlying filing(s) is/are:

5.

I have personally communicated on or about
[date]_________ with an employee or
employees of the Client, whose names are
________, who (A) personally reviewed the
documents being submitted for filing, (B)
personally reviewed all required supporting
documentation of corporate and personal
authority (“Supporting Documents”), and (C)
confirmed the accuracy of all documents and
authenticity of all signatures, including the
notary.

6.

I have received and reviewed all Supporting
Documentation.

7.

Based on such communications, review of
documents and my own personal inquiry into
the Client’s past and current standards and
practices, I affirm that underlying filing(s)
contain no false or questionable statements
of fact or law.

App.114a
8.

Should any of the statements made herein
be incorrect and the Recording corrupt or
cloud the homeowner’s chain of title, I will
indemnify and hold anyone in the chain
thereafter harmless.
PROPERTY ADDRESS: ________________

9.

I am fully aware of and understand M.G.L. c.
266 § 35A.

Signed under pains and penalties of perjury.
WITNESS my signature this ___ day of ___ 20__.
/s/______________________
Signature of Declarant
STATE or Commonwealth of _____________
County _____________
On this _________ day of ___, 20, before me, the
undersigned notary public, personally appeared, and
proved to me through satisfactory evidence of
identification, which was ________, to be the person
who signed the preceding or attached document in
my presence, and who swore or affirmed to me that
the contents of the document are truthful and
accurate to the best of (his) (her) knowledge and
belief.
______________________
Notary Public:
My commission expires: ___
(Official signature and seal of notary)

App.115a

COMMONWEALTH OF MASSACHUSETTS
SOUTHERN ESSEX DISTRICT REGISTRY OF DEEDS
SHETLAND PARK
45 CONGRESS STREET
SUITE 4100,
SALEM, MASSACHUSETTS 01970
________________________
A division of the Secretary of the Commonwealth
WILLIAM FRANCIS GALVIN, SECRETARY
This is to advise you that the documents submitted
by your office have been recorded in the Southern
Essex District Registry of Deeds in Book 00000, Page
000-000.
Please also be advised, that I have forwarded a
copy of these documents to the Massachusetts Attorney
General’s Office for review as to whether or not there
is a possible violation of the Crime Against Property
Statute, specifically MGL Chapter 266, Section 35A
(b) (4) that provides that:
“Whoever intentionally: files or causes to be
filed with a registrar of deeds any document
that contains a material statement that is
false or a material omission, knowing such
document to contain a material statement
that is false or a material omission, shall be
punished by imprisonment in the state
prison for not more than 5 years or by
imprisonment in the house of correction for
not more than 2 and one-half years or by a
fine of not more than $10,000 in the case of
a natural person or not more than $100,000
in the case of any other person, or by both
such fine and imprisonment.”

App.116a
As the Register of Deeds and the keeper of the
records for the Southern Essex District, it is my
responsibility to ensure the integrity of the land
recordation system. I am very concerned that some
business practices that have been utilized have
adversely affected homeowners’ property rights.
Please be advised that this Registry intends to
work diligently with not only the Massachusetts
Attorney General’s Office, but also with other regulatory agencies to ensure that the real property documents recorded here are not fraudulent and do not
effect the homeowners of Essex County in an adverse
way.
Thank you for your attention to this matter.
John O’Brien
Register of Deeds
Southern Essex District

App.117a

COMMONWEALTH OF MASSACHUSETTS
SOUTHERN ESSEX DISTRICT REGISTRY OF DEEDS
SHETLAND PARK
45 CONGRESS STREET
SUITE 4100,
SALEM, MASSACHUSETTS 01970
________________________
A division of the Secretary of the Commonwealth
WILLIAM FRANCIS GALVIN, SECRETARY
RE:
We are in receipt of the document submitted by
your office relating to the above property, which is in
replacement of the document we returned to you on
_____________. This is to advise you that the document
submitted by your office has been recorded in the
Southern Essex District Registry of Deeds at Book
___, Page __. However, based on the fact that the
original document was signed by a number of known
robo-signers, I have forwarded a copy of this document to the Massachusetts Attorney General’s Office
for review as to whether or not there is a possible
violation of the Crime Against Property Statute,
specifically MGL Chapter 266, Section 35A (b) (4)
that provides that:
“Whoever intentionally: files or causes to be filed
with a registrar of deeds any document that contains
a material statement that is false or a material
omission, knowing such document to contain a material
statement that is false or a material omission, shall
be punished by imprisonment in the state prison for
not more than 5 years or by imprisonment in the
house of correction for not more than 2 and one-half
years or by a fine of not more than $10,000 in the

App.118a
case of a natural person or not more than $100,000
in the case of any other person, or by both such fine
and imprisonment.”
As the Register of Deeds and the keeper of the
records for the Southern Essex District, it is my
responsibility to ensure the integrity of the land
recordation system. I am very concerned that some
business practices that have been utilized have
adversely affected homeowner’s property rights.
Please be advised that this Registry intends to
work diligently with not only the Massachusetts
Attorney General’s Office, but also with other
regulatory agencies to ensure that the real property
documents recorded here are not fraudulent and do
not effect the homeowners of Essex County in an
adverse way.
Thank you for your attention to this matter.
John O’Brien
Register of Deeds
Southern Essex District

App.119a
MCDONNELL PROPERTY ANALYTICS
APPROVED ROBO-SIGNERS LIST UPDATED: 6/12/2012
Last Name

First Name

Last Name

First
Name

Adams

Muriel

Carbiener

Jeffrey

Aguilar
Greene

Angela

Carrico

Heather

Alagic

Sanela

Carter

Christina

Alfonso

Luisa

Castro

Vilma

Al-Hammadi Wendy
Albertson

Chapman

Carol

Allen

Christina

Chapman

Doris

Allen

Greg

Chua

James

Allotey

Liquenda

Clark

Natasha

Altman

Robert

Clark

Valerie

Amico

Christopher Co

David

Anderson

Christine

Coats

Kay

Anderson

Earitha

Cody

John

Anderson

Scott

Coffman

Matthew

Antonelli

Anita

Colston

Noriko

Arias

Leticia

Cook

J.

Bachman

Micall

Cook

Mary

Backus

Deborah

Cook

Whitney

Baggs

Loraine

Cook

Whitney
K.

App.120a
Bagley

Brent

Cornett

Clay

Bailey

Denise

Cottrell

Beth

Bailey

Kirsten

Cottrell

John

Bailey-Slyh

Martha

Cowen

Jeffrey

Balara

Lorriane

Crawczun

Barbara

Baldwin

Christie

Crite

Shawanna

Baldwin

Lis

Croft

Tom

Banaszewski Matthew

Cureton

Nikki

Barraza

Ashley

Daggs

Nicole

Bartow

Hal

Dalton

Margaret

Bell

Lance

Dawson

Kimberly

Benio

Donna

Dhimitri

Alisa

Benio

Jennifer

Dian

Mike

Berz

Paula

Dietz

Darline

Bese

Teresa

Dixon

Diane

Bischof

Mark

Docx

Bishop

Mark

Doko

Dhurato

Blackstun

Nate

Duddy

Karen

Blechinger

Tonya

Dunnery

John A.

Bly

Bryan

Eads

Shirley

Bolduc

Lori

Eller

Nancy

Border

Tiffany

Elliot

Kevin J.

Brignac

Deborah

Esposito

Theresa

App.121a

Brooks

Beverly

Flanagan

Melissa

Brown

China

Fomby

Aaron

Brown

Lorraine

Forbes

Michael

Brown

Tracey

Frazier

Brenda L.

Burgess

Jonathan

French

Kim

Burnett

Brian

Friedman

Eric

Burton

Linda

Fuerstenberger Andrew

Busby

Giner

Gaal

Eva

Buxton

Laura

Gaglione

Rene

App.122a
MCDONNELL PROPERTY ANALYTICS
APPROVED ROBO-SIGNERS LIST UPDATED: 1/14/2015
Last Name

First Name

Last Name

First
Name

Adams

Muriel

Carbiener

Jeffrey

Aguilar
Greene

Angela

Carrico

Heather

Alagic

Sanela

Carter

Christina

Alfonso

Luisa

Castro

Vilma

Al-Hammadi Wendy
Albertson

Chapman

Carol

Allen

Christina

Chapman

Doris

Allen

Greg

Chua

James

Allotey

Liquenda

Clark

Natasha

Altman

Robert

Clark

Valerie

Amico

Christopher Co

David

Anderson

Christine

Coats

Kay

Anderson

Earitha

Cody

John

Anderson

Scott

Coffman

Matthew

Antonelli

Anita

Colston

Noriko

Arias

Leticia

Cook

J.

Bachman

Micall

Cook

Mary

Backus

Deborah

Cook

Whitney

Baggs

Loraine

Cook

Whitney
K.

App.123a
Bagley

Brent

Cornett

Clay

Bailey

Denise

Cottrell

Beth

Bailey

Kirsten

Cottrell

John

Bailey-Slyh

Martha

Cowen

Jeffrey

Balara

Lorriane

Crawczun

Barbara

Baldwin

Christie

Crite

Shawanna

Baldwin

Lis

Croft

Tom

Banaszewski Matthew

Cureton

Nikki

Barraza

Ashley

Daggs

Nicole

Bartow

Hal

Dalton

Margaret

Bell

Lance

Dawson

Kimberly

Benio

Donna

Dhimitri

Alisa

Benio

Jennifer

Dian

Mike

Berz

Paula

Dietz

Darline

Bese

Teresa

Dixon

Diane

Bischof

Mark

Docx

Bishop

Mark

Doko

Dhurato

Blackstun

Nate

Duddy

Karen

Blechinger

Tonya

Dunnery

John A.

Bly

Bryan

Eads

Shirley

Bolduc

Lori

Eller

Nancy

Border

Tiffany

Elliot

Kevin J.

Brignac

Deborah

Esposito

Theresa

App.124a

Brooks

Beverly

Flanagan

Melissa

Brown

China

Fomby

Aaron

Brown

Lorraine

Forbes

Michael

Brown

Tracey

Frazier

Brenda
L.

Burgess

Jonathan

French

Kim

Burnett

Brian

Friedman

Eric

Burton

Linda

Fuerstenberger Andrew

Busby

Giner

Gaal

Eva

Buxton

Laura

Gaglione

Rene

App.125a
ASSIGNMENT OF DEED OF TRUST
FOR LOAN NO. 0694292772
(MARCH 1, 2010)
REGINA ALCOMENDRAS
SANTA CLARA COUNTY
RECORDER
RECORDED AT THE REQUEST OF
RECORDING SERVICE
RECORDING REQUESTED BY CALIFORNIA
RECONVEYANCE COMPANY AND WHEN
RECORDED MAIL TO CALIFORNIA
RECONVEYANCE COMPANY
Trustee Sale No. 241393CA
Loan No. 0694292772
Title Order No. 379702
IMPORTANT NOTICE
NOTE: After having been recorded, this Assignment
should be kept with the Note and the Deed of Trust
hereby assigned.
ASSIGNMENT OF DEED OF TRUST
FOR VALUE RECEIVED, the undersigned hereby
grants, assigns and transfers to Bank of America,
National Association as successor by merger to LaSalle
Bank NA as trustee for WaMu Mortgage Pass-Through
Certificates Series 2005-AR19 Trust all beneficial
interest under that certain Deed of Trust dated 06-212005, executed by VINCENT TANG AND LIEN
TANG, HUSBAND AND WIFE AS JOINT TENANTS,
as Trustor; to CALIFORNIA RECONVEYANCE
COMPANY as Trustee; and Recorded 07-06-2005,

App.126a
Book, Page, Instrument 18453514 of official records in
the Office of the County Recorder of SANTA CLARA
County, California. APN: 660-61-018 Situs: 2739
CLOVER MEADOW COURT, SAN JOSE, CA 951351673
TOGETHER with the note or notes therein
described and secured thereby, the money due and to
become due thereon, with interest, and all rights
accrued or to accrue under said Deed of Trust including
the right to have reconveyed, in whole or in part, the
real property described therein.
DATE: February 26, 2010
JPMorgan Chase Bank, National Association, successor
in interest to Washington Mutual Bank, FA
/s/ Deborah Brignac
Vice President
STATE OF CALIFORNIA
COUNTY OF LOS ANGELES
On February 26, 2010 before me, ISAAC
PACHECO, “Notary Public”, personally appeared
Deborah Brignac, who proved to me on the basis of
satisfactory evidence to be the person(s) whose name(s)
is/are subscribed to the within instrument and
acknowledged to me that he/she/they executed the
same in his/her/their authorized capacity(ies), and
that by his/her/their signature(s) on the instrument
the person(s), or the entity upon behalf of which the
person(s) acted, executed the instrument.

App.127a
I certify under PENALTY OF PERJURY under
the laws of the State of California that the foregoing
paragraph is true and correct.
WITNESS my hand and official seal.
/s/ Isaac Pacheco
Signature
Commission #1786928
Notary Public – California
Los Angeles County

App.128a
DEED OF TRUST, EXCERPTS
Paragraph 16—Loan No. 0694292772
16. GOVERNING LAW; SEVERABILITY; RULES OF
CONSTRUCTION. This Security Instrument shall be
governed by federal law and the law of the jurisdiction
in which the Property is located. . .
Paragraph 22—Loan No. 0694292772
22. ACCELERATION; REMEDIES. The notice shall
further inform Borrower of the right to reinstate
after acceleration and the right to bring a court
action to assert the non-existence of a default or any
other defense of Borrower to acceleration and sale…

